<html>
<title> - PROJECT SAFE NEIGHBORHOODS: AMERICA'S NETWORK AGAINST GUN VIOLENCE</title>
<body><pre>[Senate Hearing 108-159]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-159

   PROJECT SAFE NEIGHBORHOODS: AMERICA'S NETWORK AGAINST GUN VIOLENCE

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 13, 2003

                               __________

                          Serial No. J-108-11

                               __________

         Printed for the use of the Committee on the Judiciary



89-886              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
CHARLES E. GRASSLEY, Iowa            PATRICK J. LEAHY, Vermont
ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
JON KYL, Arizona                     JOSEPH R. BIDEN, Jr., Delaware
MIKE DeWINE, Ohio                    HERBERT KOHL, Wisconsin
JEFF SESSIONS, Alabama               DIANNE FEINSTEIN, California
LINDSEY O. GRAHAM, South Carolina    RUSSELL D. FEINGOLD, Wisconsin
LARRY E. CRAIG, Idaho                CHARLES E. SCHUMER, New York
SAXBY CHAMBLISS, Georgia             RICHARD J. DURBIN, Illinois
JOHN CORNYN, Texas                   JOHN EDWARDS, North Carolina
            Makan Delrahim, Chief Counsel and Staff Director
      Bruce A. Cohen, Democratic Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Cornyn, Hon. John, a U.S. Senator from the State of Texas........     3
    prepared statement...........................................    51
Craig, Hon. Larry, a U.S. Senator from the State of Idaho........     3
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     1
Kohl, Hon. Herbert, a U.S. Senator from the State of Wisconsin, 
  prepared statement.............................................    74
Leahy, Hon. Patrick J., a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    72
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    14
Specter, Hon. Arlen, a U.S. Senator from the State of 
  Pennsylvania...................................................    13

                               WITNESSES

Blumstein, Alfred, Professor, Carnegie Mellon University, 
  Pittsburgh, Pennsylvania.......................................    31
Curtis, Charles L., President, Kansas City Metropolitan Crime 
  Commission, Kansas City, Missouri..............................    29
Graves, Hon. Todd P., U.S. Attorney for the Western District of 
  Missouri, Kansas City, Missouri................................     9
Ludwig, Jens, Association Professor of Public Policy, Georgetown 
  University, Washington, D.C....................................    33
McNulty, Hon. Paul J., U.S. Attorney for the Eastern District of 
  Virginia, Alexandria, Virginia.................................     7
Meehan, Hon. Patrick L., U.S. Attorney for the Eastern District 
  of Pennsylvania, Philadelphia, Pennsylvania....................    11
Mook, Dennis A., Chief of Police, Newport News Police Department, 
  Newport News, Virginia.........................................    24
Spann, Russell Edward, Captain, West Valley Police Department, 
  West Valley, Utah..............................................    22
Totaro, Hon. Donald R., District Attorney, Lancaster County, 
  Pennsylvania...................................................    27
Warner, Hon. Paul M., U.S. Attorney for the District of Utah, 
  Salt Lake City, Utah...........................................     5

                         QUESTIONS AND ANSWERS

Blumstein, Alfred, response to a question submitted by Senator 
  Kohl...........................................................    43
Ludwig, Jens, responses to questions submitted by Senator Kohl...    44
Totaro, Hon. Donald R., responses to questions submitted by 
  Senator Hatch..................................................    48

                       SUBMISSIONS FOR THE RECORD

Blumstein, Alfred, Professor, Carnegie Mellon University, 
  Pittsburgh, Pennsylvania, prepared statement...................    58
Curtis, Charles L., President, Kansas City Metropolitan Crime 
  Commission, Kansas City, Missouri, prepared statement..........    64
Graves, Hon. Todd P., U.S. Attorney for the Western District of 
  Missouri, Kansas City, Missouri, prepared statement............    68
Ludwig, Jens, Association Professor of Public Policy, Georgetown 
  University, Washington, D.C., prepared statement...............    75
McNulty, Hon. Paul J., U.S. Attorney for the Eastern District of 
  Virginia, Alexandria, Virginia, prepared statement.............    84
Meehan, Hon. Patrick L., U.S. Attorney for the Eastern District 
  of Pennsylvania, Philadelphia, Pennsylvania, prepared statement    93
Mook, Dennis A., Chief of Police, Newport News Police Department, 
  Newport News, Virginia, prepared statement.....................    98
Spann, Russell Edward, Captain, West Valley Police Department, 
  West Valley, Utah, prepared statement..........................   102
Totaro, Hon. Donald R., District Attorney Lancaster County, 
  Pennsylvania, prepared statement...............................   108
Warner, Hon. Paul M., U.S. Attorney for the District of Utah, 
  Salt Lake City, Utah, prepared statement.......................   117

 
   PROJECT SAFE NEIGHBORHOODS: AMERICA'S NETWORK AGAINST GUN VIOLENCE

                              ----------                              


                         TUESDAY, MAY 13, 2002

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 9:36 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch, Chairman of the Committee, presiding.
    Present: Senators Hatch, Specter, Sessions, Craig, and 
Cornyn.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    Chairman Hatch. Well, good morning. Welcome to this very 
important Committee hearing to examine Project Safe 
Neighborhoods, President Bush's gun violence reduction 
initiative.
    The problem of gun violence is a national tragedy which 
requires careful analysis and serious attention. Every year in 
this country, too many loved ones and family members are killed 
by criminals with guns.
    In 2001, criminals used guns to commit over one-third of a 
million violent crimes, including 63 percent of all homicides, 
resulting in over 10,000 deaths. For every fatal shooting that 
occurs, there are roughly three non-fatal shootings.
    Indeed, even those who dedicate their lives to the 
protection of America's citizens are tragically the victims of 
gun violence and gun crime. In 2001, 47 of the 51 American law 
enforcement officers killed in the line or duty died from 
gunshot wounds. This last fact should not go unnoticed this 
week, as thousands of law enforcement officers from across the 
country gather here at the National Law Enforcement Memorial to 
pay tribute to all of the fallen officers. We owe an extra 
effort to our Nation's police officers and all of our fellow 
citizens to make sure that those who illegally possess firearms 
are prosecuted and punished.
    These numbers are dramatic and they represent much more 
than cold figures. They underscore the terrible tragedies felt 
by countless family members, children, fathers, mothers, 
relatives, and friends in communities across our country. 
Criminals with guns who shoot and kill are nothing less than 
domestic terrorists. They terrorize and attack law-abiding 
members of their communities, and for that they deserve stiff 
and severe punishment.
    While pointing out the nature and extent of this problem, 
these numbers also are a call to action. Law-abiding citizens 
want swift and certain justice for gun criminals in their 
communities.
    Project Safe Neighborhoods is the Bush administration's gun 
violence reduction initiative which is being run by the Justice 
Department. Project Safe Neighborhoods focuses law enforcement 
efforts against criminals who illegally use guns. More than 70 
percent of all gun crimes are committed by repeat offenders, 
criminals who have skirted the courts and flaunted the law to 
prey on citizens and communities again and again.
    President Bush has committed his administration to this 
initiative in order to protect citizens and the rule of law. He 
has stated his commitment simply, clearly, and with honesty, 
quote, ``If you use a gun illegally, you will do hard time,'' 
unquote. Attorney General Ashcroft has implemented the 
President's directive by requiring each United States Attorney 
to develop and implement a program to address gun crime and gun 
violence in their respective districts.
    The concept behind Project Safe Neighborhoods is simple: 
organize and bring together prosecutors, Federal, State and 
local law enforcement, and the community to design and 
implement a coordinated and strategic approach to catch gun 
criminals, to deter criminals from carrying or using guns, and 
to build community support among law-abiding citizens who are 
sick and tired of being terrorized by violent gun-toting 
criminals who wreck havoc in their neighborhoods.
    The administration has allocated significant resources to 
Project Safe Neighborhoods, more than $500 million to this 
initiative thus far, and they hope ultimately to devote more 
than $900 million to this effort. Project Safe Neighborhoods 
has added 207 new Federal prosecutors and nearly 600 new State 
and local prosecutors nationwide to focus on gun criminals.
    After almost 2 years, Project Safe Neighborhoods is showing 
significant, tangible successes. The numbers speak for 
themselves. As can be seen on the chart, you will notice a 
dramatic increase in gun crime enforcement under Project Safe 
Neighborhoods. The number of defendants charged with Federal 
firearms violations has increased significantly in the last 2 
years, noticeably after the start of Project Safe 
Neighborhoods.
    As the numbers show, since this administration implemented 
Project Safe Neighborhoods in May 2001, Federal gun 
prosecutions have increased by over 40 percent, from a total of 
8,054 for fiscal year 2001, to a projected 11,686 for fiscal 
year 2003. The conviction rate in these cases is nearly 90 
percent. More than half of these gun criminals were sentenced 
to more than 5 years in a Federal prison. In addition to the 
rise in Federal prosecutions, State and local prosecutors have 
boosted their efforts as well, with the addition of nearly 600 
prosecutors funded through Project Safe Neighborhoods.
    While much has been accomplished, there is still much more 
to do to rid this country of the scourge of gun violence, and I 
am interested in hearing how the PSN program is working and 
what additional steps are needed to make sure that we do all 
that is necessary to protect our communities from violent gun-
toting criminals.
    So I look forward to hearing from each of our witnesses 
today about this important initiative, and reading their 
statements, and we will go from there.
    We will turn to Senator Craig, who is going to chair this 
hearing, and take his statement at this time.

STATEMENT OF HON. LARRY CRAIG, A U.S SENATOR FROM THE STATE OF 
                             IDAHO

    Senator Craig. Well, Mr. Chairman, thank you very much for 
this hearing on, of course, Project Safe Neighborhoods and the 
substantially expanded program that we have under the Bush 
administration, recognizing communities and dealing with the 
five core elements in the development of the program from 
partnerships to strategic planning, training, and outreach and 
accountability.
    By evidence, it appears to be working. We know that this is 
an outgrowth from a project that we got involved in some time 
ago and expanded it in what we at that time called Project 
Exile and the positive impacts that has on the use of a firearm 
in the commission of a crime.
    So I have no additional statement. I think your opening 
statement most assuredly is adequate. It is important we hear 
from these witnesses as we look at what we are currently doing 
in the 2-year program, the amount of money that has been put in 
it, the training of new Federal and State prosecutors in 
support of investigators, and the promotion of community 
outreach.
    So with that, we thank you very much, Mr. Chairman.
    Chairman Hatch. Well, thank you, Larry.
    We will begin with Mr. Warner and we will go right across 
the table.
    Senator Cornyn. Excuse me, Mr. Chairman. May I be 
recognized? I have just joined you a moment ago.
    Chairman Hatch. Sure.

STATEMENT OF HON. JOHN CORNYN, A U.S. SENATOR FROM THE STATE OF 
                             TEXAS

    Senator Cornyn. I did want to say just a couple or words, 
and I have a longer statement that I won't burden you with and 
I will ask that it be made part of the record. I appreciate 
being recognized.
    I want to make a few comments regarding Project Safe 
Neighborhoods and a similar program that we started in Texas a 
few years ago when I was Attorney General called Texas Exile. 
Of course, like all good ideas, we borrowed shamelessly from 
the Richmond Project Exile program.
    First, I want to commend the Chairman for having this 
hearing. I think it is an important part of our law enforcement 
responsibilities across this country to prevent those who 
possess firearms illegally and use them as career criminals to 
commit perhaps multiple crimes on a daily basis, to try to make 
sure that we get those people off the street, while at the same 
time respecting the rights of law-abiding citizens to own and 
use firearms for legitimate purposes.
    In September of 1999, then-Texas Governor George W. Bush 
and I introduced Texas Exile. Of course, one of the things that 
I think was so great about that program and what is great about 
Project Safe Neighborhoods is the fact that rather than law 
enforcement agencies competing with one another, we worked 
together at the local, State and Federal levels to try to 
address this particular problem.
    Texas Exile is a crime control initiative that utilizes 
existing State and Federal laws designed to get to the root 
cause of gun violence, which is criminals who illegally use and 
carry weapons. When law enforcement reports a crime where a 
weapon is used or possessed, the district attorney's office and 
the U.S. Attorney's office confer, which we need to encourage, 
to decide whether the prosecution should proceed in State or 
Federal court, depending on the applicable penalty provisions 
and the facts of the crime.
    The program simply opens up the Federal system to State 
prosecutors so that criminals with weapons will receive maximum 
jail time. Unfortunately, under State law, particularly in my 
home State of Texas, too often the gun part of the offense 
seems to be the subject of plea bargain or otherwise not 
emphasized as an integral and important part of that criminal 
activity, and punished as such. The advantage of such a system 
is that habitual, violent offenders are essentially exiled from 
the city streets and potential offenders are discouraged by the 
threat of harsh prison terms.
    Let me just summarize here, in conclusion, Mr. Chairman, 
and just say that I am sold on this concept. I think it has 
proven to be effective and I want to do everything I can to 
encourage and help facilitate the Project Safe Neighborhoods 
initiative because I believe that homicides and other crimes 
can be prevented before they occur by enforcing the laws that 
prohibit weapons possession by felons and persons convicted of 
crimes of domestic violence, for example, or someone who is 
just merely subject to a family restraining order.
    It is actually a felony for someone who is under a domestic 
restraining order to possess a firearm, and I believe that 
particularly in the most volatile of situations, domestic 
violence, discouraging and hopefully eliminating the possession 
of firearms by someone who is subject to a protective order has 
prevented a lot of harm.
    As of May 2, 2003, the Texas program has produced 2,020 
indictments, 1,478 convictions, and 2,482 confiscations of 
firearms from these career criminals. The average sentence in 
January 2000 was 73 months, and it is noteworthy that Texas had 
an 82-percent increase in the prosecution of Federal gun crimes 
over the last year, and now I believe leads the Nation in terms 
of the prosecution of Federal firearms offenses.
    So I am pleased to be here and delighted to listen now to 
the witnesses, and thank you, Mr. Chairman, for giving me just 
a chance to make a few comments.
    [The prepared statement of Senator Cornyn appears as a 
submission for the record.]
    Chairman Hatch. Well, thank you so much, Senator. We 
appreciate your comments.
    We will turn to Mr. Warner. I just want to say you have 
done a terrific job out there in Utah and we are very 
appreciative. In fact, all of you are doing terrific work. We 
follow all of you and we appreciate having all of you here 
today.
    So we will start with you, Mr. Warner. Each of you will 
have 5 minutes. I hope you can limit yourselves to 5 minutes 
and then we will have questions for you.

 STATEMENT OF HON. PAUL M. WARNER, UNITED STATES ATTORNEY FOR 
           THE DISTRICT OF UTAH, SALT LAKE CITY, UTAH

    Mr. Warner. Good morning, Mr. Chairman and Members of the 
Committee, and thank you, Chairman Hatch for that kind 
introduction. I greatly appreciate the opportunity to testify 
before the Committee on the critical subject of reducing gun 
violence through Utah's Project Safe Neighborhoods.
    With your permission, Mr. Chairman, I will summarize the 
major points I would like the Committee to understand and I 
request that my entire statement be made part of the record.
    Chairman Hatch. Without objection.
    Mr. Warner. I would first like to say, Senator Hatch, that 
few people serving here in Washington are as well-attuned to 
the issue of gun violence as you are, and that few have done as 
much as you have in providing the leadership to address it.
    Over 3 years ago, Mr. Chairman, you had a vision and a name 
for an anti-gun violence program. That name, Project CUFF, 
Criminal Use of Firearms by Felons, and that program was the 
beginning of Project Safe Neighborhoods, or PSN, in Utah.
    Gun violence continues to pose a real threat to the safety 
of our citizens. Consequently, there is a need in Utah to 
vigorously enforce existing gun laws in order to combat the 
problem of gun violence. This need is now being addressed 
through PSN. President Bush and Attorney General Ashcroft have 
made this project a top criminal justice priority.
    PSN is statewide in Utah. The State and local response has 
been tremendous. What started originally as a few ATF officers 
and a couple of Federal prosecutors has now grown into a task 
force of over 45 individuals representing nearly three dozen 
Federal, State and local organizations.
    The gun unit in my office currently has nine Federal, State 
and local prosecutors dedicated to prosecuting gun violence in 
the Federal system. To date, over 800 cases have been indicted 
by Federal grand juries in Utah under PSN. Last year alone, my 
office brought 300 firearms cases. The success achieved so far 
under Utah PSN could not have been realized without the energy 
and enthusiasm of our law enforcement partners.
    The primary focus of PSN in Utah is to aggressively 
investigate and prosecute firearms offenses. Our prosecution 
guidelines are consistent with Attorney General Ashcroft's 
announced priorities: first, to target and disrupt violent 
organizations and offenders, including armed career criminals; 
second, to dismantle illegal gun trafficking; and, third, to 
aggressively prosecute prohibited persons found in possession 
of firearms.
    Let me take just a moment to give you examples of what is 
being done. A real problem is firearms trafficking, enabling 
the most dangerous members of our communities to acquire 
firearms illegally. Those most likely to use a firearm in the 
commission of a crime are often able to get their firearms 
without risking a background check. Therefore, a major emphasis 
of Utah PSN is disrupting illegal gun trafficking.
    A recent investigation is illustrative. In December 2001, a 
small firearms dealer in a rural area of Utah was burglarized. 
Fifteen handguns were stolen. The two individuals responsible 
for the burglaries have been apprehended and face Federal 
firearms charges. To date, 10 of the 15 firearms have been 
recovered. Of the firearms recovered, all were found in the 
hands of prohibited persons. Many have been used in crimes.
    Another area of our focus is on prohibited persons in 
possession of firearms. The positive impact on public safety of 
prosecuting felons in possession can be considerable. A recent 
case illustrates what is being accomplished through our PSN 
partnerships.
    On July 6, 2001, Roosevelt City, Utah, lost a beloved 
public servant when Police Chief Cecil Gurr was violently 
gunned down by a convicted felon armed with a rifle. State and 
local authorities apprehended the shooter. Evidence indicated 
that another individual had given the rifle to the shooter. The 
question became: what about prosecuting the individual who 
provided the gun?
    Deputy Keith Campbell of the Uintah County Sheriff's 
Office, a PSN partner, enlisted the resources of many to build 
a Federal gun case against the individual that provided the 
rifle used to kill Chief Gurr. The result was a solid case done 
thoroughly and quickly, using Federal, State and local 
cooperation. The shooter, prosecuted by the local DA's office, 
received life in prison without possibility of parole. And the 
provider of the rifle, prosecuted by my office under PSN, 
received the maximum 10 years in prison.
    In conclusion, Mr. Chairman, Project Safe Neighborhoods is 
working in Utah. Regardless of whether a partner is from a 
rural town or downtown Salt Lake City, Project Safe 
Neighborhoods has provided a means of disrupting and deterring 
gun violence in Utah. Thanks to your leadership and the support 
of the Department of Justice, we have the tools and resources 
to sustain this effort.
    Thank you, Mr. Chairman. I would be pleased to answer any 
questions from the Committee.
    [The prepared statement of Mr. Warner appears as a 
submission for the record.]
    Chairman Hatch. Thank you, Mr. Warner.
    Mr. Warner is the United States Attorney for the District 
of Utah.
    We are going to turn to Mr. Paul McNulty, who is the United 
States Attorney for the Eastern District of Virginia. Then we 
will go to Hon. Todd P. Graves, who is the United States 
Attorney for the Western District of Missouri, and then finally 
to Hon. Patrick L. Meehan, United States Attorney for the 
Eastern District of Pennsylvania.
    We are really honored to have all of you U.S. Attorneys 
here. You do terrific work, often unheralded, and without your 
efforts we just wouldn't be as well off today in this country 
as we are from criminal activity. So we really appreciate all 
the work you do.
    Paul, it is nice to welcome you back. You spent a lot of 
years on Capitol Hill. I hope you are enjoying your new job.

 STATEMENT OF HON. PAUL J. MCNULTY, UNITED STATES ATTORNEY FOR 
     THE EASTERN DISTRICT OF VIRGINIA, ALEXANDRIA, VIRGINIA

    Mr. McNulty. I really am. Thank you, and it is a real 
pleasure to have the opportunity to--
    Chairman Hatch. If you will excuse me, I have got to leave 
and go to another meeting. So Senator Craig is going to conduct 
the rest of these hearings and we are just happy that he is 
willing to do that and we appreciate it. This is a very 
important hearing and we think it is time the public really 
understands what all of you are doing. So we appreciate all you 
are doing and I appreciate Senator Craig.
    Senator Craig. [presiding] Thank you, Orrin.
    Paul, please continue, and it is good to see you.
    Mr. McNulty. Thank you very much, Senator.
    Senator Craig. I have fond memories of working with you and 
your former boss, Congressman Bill McCollum, over the years on 
issues like this one and others.
    Please proceed.
    Mr. McNulty. Thank you, Senator. It is a pleasure to be 
here and have this opportunity.
    I have a unique perspective on Project Safe Neighborhoods 
because at the start of this administration, I chaired the 
working group that developed Project Safe Neighborhoods and now 
have the opportunity as a U.S. Attorney to be in the real 
world, you might say, implementing the program that we 
developed right after the transition.
    I am also very fortunate to be in a district that has such 
a great track record in relation to combating gun violence and 
is the birthplace of a program that has received so much 
attention, Project Exile. That program, which is firmly 
established in our district, is one of the centerpieces of the 
Project Safe Neighborhoods approach.
    Let me quickly talk about the experience we had in 
developing Project Safe Neighborhoods. We came to the working 
group with a couple of key principles. The first was that we 
recognized there were a number of different practices going on 
around the country and we didn't want to reinvent the wheel. We 
wanted to build upon what had already worked effectively, and 
so we looked to efforts like Project Exile and Project Achilles 
and Project Triggerlock and Operation Ceasefire, all of these 
programs that had been used in various places in the country to 
reduce gun violence. Each of them had essentially the core 
feature of holding violent criminals accountable and to impose 
firm punishment on those who use guns against other people in 
criminal acts.
    The second principle we recognized was that this was a 
partnership, that the battle against violent crime was 
primarily a State and local struggle and we had to respect the 
primacy of State and local law enforcement. We also had to 
realize that it was not going to be one-size-fits-all, that 
there needed to be a local approach developed in partnership 
with Federal law enforcement.
    We assembled a group of outside law enforcement 
organizations to help us think through the elements, and in my 
testimony I identify those organizations. They were very 
helpful in bringing to us more information about best practices 
and to explain how the police departments, the district 
attorneys, in my State, ``Commonwealth Attorneys,'' how law 
enforcement at the State and local level viewed the most 
effective programs and what would be necessary to strengthen 
the partnership.
    So with that, we then identified five elements that would 
be a part of Project Safe Neighborhoods. Those five elements 
are, first, partnership. Whatever happened had to be done 
together with State and local law enforcement. In the case of 
Virginia, we already had a strong partnership in place with 
Richmond law enforcement, in particular.
    We convened a summit in January of 2002, about 3 months 
after I was sworn in, and we called together every police 
chief, every sheriff, every local prosecutor--that is, the 
commonwealth attorney--to meet in Richmond for a day together 
develop a common vision for how we wanted to combat gun crime 
throughout eastern Virginia. That was an unprecedented 
gathering and it helped us develop a strategy that would be 
district-wide, not just in the city of Richmond.
    The second element of PSN is strategic planning. Once the 
partnership is in place, you must identify the problem through 
intelligence and other information available to law enforcement 
and then put together a plan for enforcement that makes sense.
    Now, this gives me an opportunity to mention briefly 
something about Exile. Exile is really at its heart a process 
for identifying good cases that can go into the Federal system 
to be prosecuted aggressively using 5-year mandatory sentences 
and other tough penalties.
    The nature of Exile is something that can be easily moved 
into other localities. It is built upon a process of having an 
intake system that reviews cases quickly, Federal and State 
together, to decide where each case would be best prosecuted. 
The statistics from Richmond are clear in terms of the impact 
that Exile had on the crime rate there that was really out of 
control in the early 1990's and mid-1990's.
    To move quickly, let me just say that the other elements 
include training. We do the training in eastern Virginia by 
going to roll calls and to State prosecutor offices and explain 
what Federal laws are so that everyone is aware of the tools 
available to use against violent criminals. Training has to, in 
a sense, support the strategy that has been developed.
    The fourth element is outreach, and a lot can be said here, 
getting the message out that there will be swift and sure 
punishment for violent crime. The Exile outreach effort has 
been well documented and we hope that in Project Safe 
Neighborhoods we will see a nationwide outreach effort. That is 
now in the process of being developed and implemented around 
the country.
    Finally, accountability, and that means that we are ready 
to have the results of this effort measured, to hold those who 
have been put in charge of this effort accountable to make sure 
that real improvement in the lives of people is accomplished.
    So those are the five elements, Senator, for Project Safe 
Neighborhoods. I am excited about the fact that through the 
clear leadership of the President and the Attorney General, we 
are going to have every U.S. Attorney implementing these five 
elements in the way that makes the most sense in their 
districts. That is why we are having such great results so far.
    Even in Virginia where we had such good success with Exile, 
now that we have taken that approach throughout the district to 
places like Newport News and Portsmouth and Norfolk and other 
areas within the district, we have seen even more of a 
reduction in violent crime district-wide as a result of this 
kind of enthusiastic and aggressive enforcement.
    Thank you very much, Senator.
    [The prepared statement of Mr. McNulty appears as a 
submission for the record.]
    Senator Craig. Paul, thank you very much, and it has to be 
pleasing for you to have been there at the beginning and to 
watch this develop across our country as it gets implemented.
    Now, we look forward to U.S. Attorney Todd Graves' 
testimony from the Western District of Missouri.

 STATEMENT OF HON. TODD P. GRAVES, UNITED STATES ATTORNEY FOR 
    THE WESTERN DISTRICT OF MISSOURI, KANSAS CITY, MISSOURI

    Mr. Graves. Thank you, Senator. Thank you to Chairman Hatch 
and Members of the Senate Judiciary Committee for the 
opportunity to testify before you today. It is an honor to have 
an opportunity to speak to the Committee regarding the Project 
Safe Neighborhoods initiative and our version of that anti-
crime initiative, which in Kansas City we call Project 
Ceasefire.
    The United States Attorney's Office of the Western District 
of Missouri works with several other organizations to fight gun 
crimes in our community. It has been a top priority of ours 
since late 1999, when we realized that a problem with gun 
crimes was brewing.
    During 1998 alone, assaults with a firearm reached 1,990 in 
Kansas City. Shortly after the release of that statistic, 
several organizations banned together to form Project 
Ceasefire, and since then we have actively been prosecuting 
felons who illegally carry firearms to see that they are held 
accountable for their actions.
    In addition to the United States Attorney's Office, the 
Bureau of Alcohol, Tobacco, Firearms and Explosives, the Kansas 
City Crime Commission, the University of Missouri, Kansas City, 
and Kansas City, Missouri, and Kansas City, Kansas, police 
departments, are also contributing resources to Project 
Ceasefire in order to reduce crime in the metropolitan area. 
Collectively, the organizations' hard work is achieving the 
ultimate goal.
    Since 1998, when 1,990 firearms assaults were reported in 
the Kansas City area, the frequency of the same type of crime 
has dropped to 1,191 in 2002. That means nearly 800 fewer 
firearm assaults are occurring on our streets every year.
    At the same time, prosecutions are increasing. In Kansas 
City, the Federal prosecution of gun crimes increased 26 
percent, while the murder rate dropped 23 percent to its lowest 
level in three decades. The Kansas City Star recently marked 
homicides in the city at a 30-year low, and this reduction 
translates into real people. Twenty-seven people are living 
today that would have been murdered the preceding year.
    Since Project Ceasefire's inception, the United States 
Attorney's Office in the Western District of Missouri has 
aggressively convicted 350 criminals in Kansas City. More than 
300 of those defendants have already been sentenced to hard 
time in Federal prison. And let me make this clear: they are 
not first-time offenders. These criminals have extensive 
histories of crime in Kansas City.
    The criminals we go after are strictly repeat offenders. In 
fact, of the 350 convicted defendants that I mentioned under 
Project Ceasefire so far, collectively they have more than 930 
prior criminal felony convictions under their belt.
    Our program is not only putting these criminals behind 
bars. Project Ceasefire also aims at educating the community as 
to the consequences felons face if they carry a firearm. The 
way in which we get that message across is through the Project 
Safe Neighborhoods media campaign for Project Ceasefire.
    The Kansas City Crime Commission, our private sector 
partner, which consists of 40 volunteer board members, has 
collected $1.4 million in private money to help fund the 
Project Ceasefire advertisements which are intended to increase 
awareness in the community. The main point of the 
advertisements is this: felons with guns burn 5 years in 
Federal prison. It is plain and simple.
    Evidence of the media campaign's success has been found 
through studies conducted by the University of Missouri-Kansas 
City. We decided to do baseline studies right up front so that 
we would be able to measure our progress. The university's 
extensive research consists of survey results collected mainly 
from felons in the Missouri State probation and parole offices.
    The results show that nearly 79 percent of offenders have 
been exposed in some way to the Ceasefire campaign, and 73 
percent of offenders have seen the Project Ceasefire 
advertisement. In turn, nearly 74 percent of offenders that 
took part in the university study said that they believe it is, 
quote, ``very likely'' that a person with a prior felony would 
be charged with a crime if caught with a gun.
    More importantly, KCPD statistics also show that the 
partnership in Project Safe Neighborhoods is effective. The 
department recently reported decreases in nearly every category 
of crime from 2001 to 2002. Examples include a 29-percent 
decrease in homicides, a 15-percent decrease in robberies, and 
a 17-percent decrease in auto thefts. That is in contrast to 
recent modest rises in crime nationwide.
    Since Project Ceasefire was created in Kansas City, violent 
crimes have been on a steady decline. Again, the Kansas City 
Star reported homicides at a 30-year low in 2002. The Kansas 
City Police Department reported decreases in crime across the 
board this year.
    Project Ceasefire has had a direct impact on our 
community's crime rate. It is an invaluable program that brings 
our community together across both sides of the State line to 
effectively fight crime in our neighborhoods.
    Thank you for your time.
    [The prepared statement of Mr. Graves appears as a 
submission for the record.]
    Senator Craig. Todd, thank you for your time and that 
testimony. Those are fascinating and very important statistics. 
I am sure the folks in Kansas City are appreciating them.
    Now, let me turn to U.S. Attorney Patrick Meehan, of the 
Eastern District of Pennsylvania. Welcome before the Committee.

STATEMENT OF HON. PATRICK L. MEEHAN, UNITED STATES ATTORNEY FOR 
      THE EASTERN DISTRICT OF PENNSYLVANIA, PHILADELPHIA, 
                          PENNSYLVANIA

    Mr. Meehan. Good morning, Senator. Thank you for having me 
here. I want to express my appreciation to Chairman Hatch for 
holding this hearing, as well as the Senator from my own State, 
Senator Arlen Specter, of this Committee, who has been a 
tremendous supporter of this program and for law enforcement 
initiatives in our State.
    Senator Craig. Arlen and I got involved in a program like 
this for the Philadelphia area some years ago and he has been a 
leader in that area. Thank you for recognizing that.
    Mr. Meehan. Thank you for your support for that, Senator.
    I am delighted to have this opportunity to speak with you 
about the successes we have had, but also the challenges we 
still face in fighting gun crime in the Eastern District of 
Pennsylvania.
    In many ways, the nine-county district is a microcosm of 
America. The district is anchored in one corner by 
Philadelphia, our Nation's fifth largest city. But between the 
quiet suburbs and the rural farmland in the other eight 
counties, there are cities, small and medium--Allentown, 
Reading, Lancaster, Easton--that are suffering from the 
violence triggered by the illegal use of firearms. In my 
district alone last year, there was more than 1 murder a day, 
more than 3 rapes a day, more than 26 robberies and 33 
aggravated assaults each day.
    Before I became the United States Attorney in September of 
2001, I was the district attorney in Delaware County, just west 
of Philadelphia. As a State prosecutor, I was heartened when 
President Bush targeted gun violence as a top domestic 
priority. And as a new Federal prosecutor, I was genuinely 
inspired when Congress supported that priority with the 
impressive resources of Project Safe Neighborhoods.
    As a result, even before assuming the position of United 
States Attorney, I reached out to the nine district attorneys 
in my district and obtained commitments from each of them to be 
partners in an unprecedented district-wide effort to 
substantially reduce firearms violence.
    Over the past 18 months, with my partners on board, my 
office has moved aggressively to implement Project Safe 
Neighborhoods by taking a number of critical actions. First, we 
have more than doubled the size of the firearms section in the 
U.S. Attorney's office, from 5 prosecutors to 12 full-time 
prosecutors, and I thank you for the resources that enabled us 
to do that.
    Second, because of Project Safe Neighborhood funding for 
State prosecutors, all nine district attorneys immediately 
agreed to cross-designate at least one assistant district 
attorney to handle firearms cases in Federal court as special 
assistant United States attorneys.
    Within months, each district attorney at least doubled the 
number of prosecutors assigned to the program. We have trained 
each of the State prosecutors in Federal practice and provided 
them with senior Federal prosecutors as mentors, which means 
that in my district we now have 40 prosecutors participating in 
Project Safe Neighborhoods.
    Third, we established a PSN task force with Federal, State 
and local law enforcement and community leaders. But these task 
forces were established in each of the nine communities and 
each task force has developed and implemented its own strategic 
plan to target the most violent offenders, organizations and 
problems in that particular county. And we have retained the 
commitment of the FBI, and particularly the ATF. I have an ATF 
agent assigned to virtually every county that works exclusively 
with the district attorney and our office.
    Fourth, working with the FBI and other agencies, we have 
established a Hobbs Act robbery task force. This task force, 
one of only a few of its kind in the country, focuses 
exclusively on gangs that commit Hobbs Act, or in effect 
commercial armed robberies, often going across county 
boundaries and eluding the ability for one local law 
enforcement officer to tie together their various crimes.
    Fifth, we are training local law enforcement officials in 
Federal law enforcement practice and assisting them in refining 
police practice to strengthen the evidence in gun cases that 
are brought into Federal court. This includes the use of gun 
and ballistic tracing as effectively as we can.
    Sixth, we have used the PSN grant of $170,000 to try to get 
our message out. We have created a powerful videotape on our 
PSN efforts and use it to speak to community groups and law 
enforcement organizations. But in a brand new program, most 
importantly we are instituting this in each of the prisons in 
our county so that, upon exit from that county, we are 
encouraging the wardens to show this film about what they could 
face if they use a gun in a future crime.
    Last year, my office indicted the greatest number of 
firearms cases, 230, and the greatest number of defendants, 
316, in our office's history. We are targeting the most violent 
criminals. Let me give you an example of two of the stories 
behind the numbers.
    Ken Coffie's criminal record of 10 prior convictions 
included 5 armed robberies and an armed carjacking. We 
convicted him of being an armed career criminal in possession 
of a gun. He is now serving a sentence of 19 years and 7 
months. Robert Baynard had a gun with him when he was stopped 
for a DUI. Baynard had 26 prior convictions for burglary. He 
pled guilty in Federal court of being an armed career criminal 
and was sentenced to 15 years.
    Our task force was focused not just on violent individuals 
like Coffie and Baynard, but more importantly on violent 
organizations and gangs that use firearms to commit crimes.
    For example, in the past 8 months investigations by the 
Berks County Task Force have targeted two violent crack cocaine 
distribution organizations that have terrorized neighborhoods 
in the city of Reading. One of these organizations involving 14 
members was operating close to an elementary school.
    So far, 21 members of the organization have been indicted. 
All but 2 are in custody and 12 have pled guilty to face 
sentences of up to life in prison. We charged 6 gangs, 
including 17 defendants, with committing 32 Hobbs Act armed 
robberies. In one case, United States v. Jeremy Fontanez, 7 
defendants were charged with committing 12 armed robberies 
across the length of the district. This was in Montgomery, 
Lehigh, Bucks, Delaware and Philadelphia counties. And based on 
further investigation, we were able to solve an unsolved murder 
in a 13th.
    I want to use this occasion to say that although we can 
always use additional resources, we have been quite pleased 
with the level of support that Congress has provided for all 
aspects of the PSN initiative. But there is one area, gun 
trafficking and gun purchasing, in which the statutes and 
Sentencing Guidelines do not seem to provide for sufficiently 
severe penalties for us to do as much as we could to stop these 
dangerous crimes.
    We have targeted gun traffickers and straw purchasers. We 
have charged 12 defendants in my district with illegally 
trafficking, and 61 defendants with straw purchasing in just 
the last year. We obtained a guilty plea from David Faruqi, a 
21-count indictment charging him with dealing in firearms 
without a license. One of the guns purchased by Faruqi was 
linked through ballistics to the Lex Street murders, the 
largest mass murder in recent Philadelphia history, where 7 
people were murdered and 3 more were wounded. We have been able 
to put traffickers in prison, but the law does not provide 
sufficiently tough penalties for firearms traffickers who 
illegally sell guns often to violent criminals.
    I want to conclude by saying that the enthusiastic 
participation of the nine district attorneys remains the 
linchpin of our program. I am committed to continuing to work 
closely with the district attorneys and the task forces to make 
a real difference in the lives of the citizens of the Eastern 
District of Pennsylvania.
    I thank you for this opportunity to speak with you, 
Senator, and I know that the Department had prepared a tape 
that was used at a recent nationwide conference on Project Safe 
Neighborhoods.
    [The prepared statement of Mr. Meehan appears as a 
submission for the record.]
    Senator Craig. I understand that that is planned. Before 
that tape is played, let me recognize two of my colleagues that 
have joined us that are certainly seasoned prosecutors in their 
own right as U.S. Senators also; first of all, your Senator, 
Senator Arlen Specter, of Pennsylvania, and Senator Jeff 
Sessions.
    Would either of you like to make opening comments or 
comments prior watching a video that Mr. Meehan has brought.

STATEMENT OF HON. ARLEN SPECTER, A U.S. SENATOR FROM THE STATE 
                        OF PENNSYLVANIA

    Senator Specter. Thank you, Mr. Chairman, and I commend you 
for scheduling this hearing and I am delighted to see this 
array of distinguished prosecutors and law enforcement officers 
who are here today on this very, very important subject.
    Going back to my days as District Attorney of Philadelphia, 
I saw the tremendous need for Federal court involvement in the 
area of those who violate the law with guns. We had a 
tremendous problem with judge-shopping in Philadelphia, light 
sentences. My first legislative initiative was the armed career 
criminal bill to provide life sentences for career criminals 
who were caught with a firearm, and I am glad to see the very 
active enforcement efforts.
    I commend all of those who are here on both panels and I 
note the presence and just heard the concluding testimony of 
U.S. Attorney Patrick Meehan. I am sorry I wasn't here earlier 
to introduce him. He had been my key deputy while I was in the 
Senate. He has had a very distinguished career as District 
Attorney of Delaware County, and now as the U.S. Attorney for 
the Eastern District of Pennsylvania. That is a very, very high 
calling.
    Being a public prosecutor is the second best job. The best 
job is assistant public prosecutor because then you get to try 
the cases and don't have to do all the administrative work.
    I also want to welcome District Attorney Don Totaro, from 
Lancaster County, who is here on the second panel. DA Totaro is 
a career prosecutor; I understand 16 years in the DA's office 
and recently elected to the position. That is very, very good 
to see.
    I am going to have to excuse myself at this time. I think 
you know that we have multiple Committee assignments and I am 
chairing the Subcommittee on Education. So I will be following 
the testimony. I am staffed here.
    I thank you prosecutors for what you are doing and you have 
the support of the entire U.S. Government behind you. The 
President himself, as you know, kicked off this program in 
Philadelphia and has the great support of the Attorney General 
of the Department of Justice and Senator Craig and Senator 
Sessions and myself.
    Thank you.
    Senator Craig. Arlen, thank you.
    Senator Sessions?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you, Larry.
    I am just pleased to hear U.S. Attorney Meehan's comments. 
It reminds me of some of the things that I know have gone on in 
your district in the past. I remember, of course, Arlen Specter 
set the standard, I guess, for aggressive prosecution over the 
years.
    But I remember your predecessor when I was United States 
Attorney. He would arrest people on a big sweep of some of 
these big gangs of drug dealers and they would all want to know 
which ones were going to Federal court, because none of them 
wanted to go to Federal court.
    Most people in the country do not know, Mr. Chairman, that 
Federal law is much tougher than State law in many areas. Some 
of the crack cocaine penalties are very tough. The gun 
penalties are very tough. We have the ability to deny bail for 
especially dangerous offenders who may be already out on parole 
or bail, or who are in danger of fleeing. It is a very 
effective tool. There is no doubt in my mind that consistent, 
aggressive prosecution of criminals with firearms will make the 
streets safer and will reduce murder.
    You go back to the days of Miami in the early 1980's and 
former President Bush was sent down there as the Vice 
President, to coordinate an effort, and criminals there were 
carrying machine guns and automatic weapons. We passed laws 
here, in Congress--I was a prosecutor at the time--to make it 
30 years without parole if you carried an automatic weapon 
during a drug crime. And the criminals stopped carrying them, 
too. Murder rates have gone down since then. I remember that 
drug and gun violations represent some of the best tools 
against the most dangerous criminals. So I think they are good.
    One of the things I have thought odd around here is that 
the people who want to pass more laws have not been very 
aggressive in utilizing the ones we have. When I came to this 
body and I pulled out the Department of Justice statistics that 
showed prosecutions, the Clinton administration was bombarding 
us with new and more regulations to fight gun crime, that 
impacted law-abiding citizens. And I noticed that their 
prosecutions had dropped 40 percent since former President Bush 
had left office. We got on the Clinton Justice Department; we 
challenged Attorney General Reno and the Chief of the Criminal 
Division, in this Committee, and a little progress was made.
    But I notice in Alabama--I have got some of the numbers--
virtually every district has doubled their prosecutions since 
President Bush has taken office. This is the right approach. It 
will save innocent lives. It will make our streets safer. How 
many murders can be avoided by targeting these criminals, I 
don't know, but I have no doubt this approach will avoid a 
significant number and a lot of people will be able to live out 
their lives in happiness rather than being disabled or in the 
graveyard.
    It is just a big deal and I think it is a very effective 
role for United States Attorneys to play. I am glad that the 
Attorney General has taken the advice that I gave him at his 
confirmation, and a challenge I gave him at his confirmation, 
which was to get these numbers up. They had dropped down too 
far and what we needed to see was dangerous criminals, who were 
using guns, going to jail. It was a shame that we had allowed 
that number to slip down some.
    So I am pleased to hear this report and some of the other 
experts with their opinions on these matters. It is very 
important to our country.
    Thank you, Mr. Chairman.
    Senator Craig. Jeff, thank you. While all of the gentlemen 
have given excellent testimony this morning, Todd Graves, from 
the Kansas City area, gave some interesting statistics that 
have come out of that effort in Kansas City alone that clearly 
echo exactly what you are saying.
    Mr. Meehan, if you would now show us--is this the video 
that you show felons when they exit the prisons?
    Mr. Meehan. No, this is not. That is a separate video which 
I would be more than pleased to forward to the Committee.
    Senator Craig. Frankly, I would like to see it because when 
those convicted criminals who have served their time leave the 
prison system, they ought to be served notice right up front 
very hard and very clear: cross that line again and you are 
going to be right back here.
    Mr. Meehan. Senator, we actually sent one of our Assistant 
United States Attorneys to sit in the holding area with a 
variety of prisoners and he delivered that message. That is not 
the film.
    Senator Craig. Well, we will see this film, but if you 
would also send that film, I think that would be valuable for 
the Committee and I would like to see it myself.
    Mr. Meehan. I will be pleased to do that.
    [Videotape shown.]
    Senator Craig. Well, thank you. That certainly corresponds 
with much of your testimony this morning. Let me ask some 
questions of you all.
    Attorney Warner, what were the challenges that you faced in 
putting together a statewide program, as opposed to a multiple 
of efforts addressing, let's say, distinct geographic areas, 
and how have you been able to coordinate all of the many local 
law enforcement and communities across Utah?
    Mr. Warner. Well, Senator, as you know, coming from a 
neighboring State--
    Senator Craig. Geography becomes a problem sometimes.
    Mr. Warner. It does indeed. Utah has a very diverse 
geography and a large area with primarily rural areas, but some 
large metropolitan areas as well.
    I think the biggest challenge we are dealing with is just 
the sheer numbers of State and local prosecutors, as well as a 
number of police departments and sheriffs' offices, and so 
forth, and coordinating all of those. We have found that by 
bringing key law enforcement partners in from each sector and 
getting them to sign on to the project that through their local 
leadership we were able to get others to come on board.
    We have tried to coordinate those efforts through a monthly 
meeting that is held to bring as many of the partners together 
as possible to coordinate our activities. I have personally 
attended those meetings and visited there and presented awards 
and the like.
    We develop common goals for the entire district throughout 
the State and part of that common goal, I think, is ending the 
revolving door concept that we saw so many times under State 
law. As Senator Sessions accurately pointed out, the Federal 
gun statutes tend to be stiffer. We can get better and longer 
sentences.
    Local law enforcement, I think, has come to appreciate that 
in Utah and they are pleased to work with us to see local 
criminals going to Federal prisons, and I might add going to 
Federal prisons on Federal tax dollars that aren't filling up 
local jails and local prisons. So it is kind of win-win, and I 
think we have a commonality of goals that have brought us 
together.
    Senator Craig. With that experience of State-local-Federal 
cooperation--and, of course, sharing resources at a time when 
States are struggling certainly can be helpful--what additional 
resources or measures would help you or your office in 
continuing to prosecute aggressively?
    Mr. Warner. Well, I am always pleased to be asked what 
additional things can help because, you know, we always, I 
guess, never seem to have enough. But I am pleased to report 
that we have been very blessed to have the resources that the 
Congress and the Department of Justice have provided us.
    I think it is absolutely essential to maintain what we 
already have. There have been a number of grants that have come 
to State and local agencies through Project Safe Neighborhoods. 
To be able to maintain the grants for community outreach 
activities and for education, training and the like, as well as 
the grants that have provided us local and State prosecutors 
that can be cross-designated--I think maintaining those 
resources is critical to us because, in my experience, 
consistency in our effort is what makes the difference.
    There are too many programs, I believe, that are kind of 
flash-in-the-pan. It is a good idea. We go out there, we hit it 
hard, and then we move on to the next crime du jour, whatever 
makes us excited that day. I think our credibility with our 
local law enforcement and our State officials, particularly in 
PSN, has been our staying power.
    We started this a couple of years ago. We have stayed at 
it, we intend to stay at it. This isn't going away, and I think 
that by our consistent effort we have built our credibility and 
we have built proven results. And I would strongly urge the 
Congress to continue to provide us the resources to maintain 
that consistency.
    Senator Craig. Well, thank you very much.
    Paul, as I had mentioned, over the years we have worked 
together on a variety of projects in law enforcement, 
especially focusing on crime and the use of a firearm in the 
commission of that crime.
    Project Exile which you referenced in Richmond is one of 
the cutting-edge programs designed to tackle gun violence in 
the Eastern District of Virginia, and I understand that you 
have taken steps, and you have explained some of those steps, 
in the expansion of it.
    Can you describe how you expanded the program and adapted 
it to meet the community needs throughout the district? You 
have mentioned some early meetings, coordinated efforts. Take 
us beyond that, if you can.
    Mr. McNulty. Yes, Senator, thank you. The key to Project 
Exiles's success is educating police officers about Federal 
penalties. If the police officer on a beat discovers a drug 
suspect in possession of a firearm, then the extent to which 
the officer is aware of federal law will help facilitate the 
transfer of that case to a Federal prosecutor, to the U.S. 
Attorney's office, for further action.
    The key to Exile is Educating police officers about the 
tools available in Federal law, having a process in the squad 
room where the reports are filed whereby they are picked up and 
taken to the local prosecutor and sorted out. We sit down 
together and we determine if each case is a good one for 
transfer to the Federal system or not. We determine if we use 
Federal sentences, given this person's criminal history, more 
effectively than a State penalty.
    Virginia actually has some good State penalties. Unlike a 
lot of States, Virginia has improved its sentencing laws. We 
have abolished parole--Senator Allen was the Governor at the 
time--and that made a substantial contribution to holding 
people accountable.
    Now, that process of working together closely with the 
police department and the commonwealth attorney can be taken to 
any locality. The Chief of Police of Newport News is here today 
and he will describe later how we have set up a system in 
Newport News with the commonwealth attorney there to move cases 
that his officers are identifying on the streets into the 
Federal system. The task force and ATF are involved with that.
    That is basically the idea, Senator, that is putting 
together a process that allows for the quick identification and 
transfer of appropriate cases for Federal prosecution. I might 
add that Paul Warner mentioned how grants can help. In our 
case, we are using the Project Safe Neighborhoods grants to 
fund facilitators or administrators who will be employed by 
either the police department or the commonwealth attorney to 
keep this process moving, to make sure that the coordination is 
a daily thing so that those cases are quickly identified and 
transferred over.
    Senator Craig. Well, I thank you for that testimony. I know 
that early on we began to pay attention to what was going on in 
Richmond as an opportunity to grow a process that clearly the 
one we are talking about today is an offshoot of, along with a 
lot of other State and community efforts across the country.
    U.S. Attorney Graves, you had mentioned the whole of your 
effort: accelerated charging of gun crimes and gun possession, 
a media campaign, your efforts with the Kansas City Crime 
Commission, research conducted by the University of Missouri-
Kansas City.
    Can you describe the importance of your program's 
relationship to the Kansas City Crime Commission? That sounds 
like a local-Federal partnership that must be working by the 
statistics you offer us.
    Mr. Graves. Yes. We are very proud of the partnership that 
we have with the Crime Commission. The Crime Commission has a 
long and proud tradition. It was actually started in Kansas 
City. We once had basically boss rule in the city in the 1930's 
and the Kansas City Crime Commission was part of the group that 
came together to clean that up.
    In the U.S. Attorney's Office, they have supported us for 
years. They helped us achieve a strike force in the 1970's when 
we had a different kind of crime problem. They have stepped up 
to this program. They have stepped up to some computer crime 
issues. So they are a huge partner.
    They were in front of the Project Safe Neighborhoods grant 
money to do TV outreach commercials. The Kansas City Crime 
Commission, leading the way, actually went forward and raised 
money before that grant money became available. We are now able 
to use that grant money to leverage even more private money. 
They have been a great partner.
    They also raised the money to initially hire the 
researchers before the PSN money became available, and we think 
it is important that this program be documented on the front 
end. You know, it is still early on with a lot of these 
statistics to know the true story, but we have got a baseline 
to start from.
    Senator Craig. Well, tell us, if you can--I understand 
there was some research coordinated with the University of 
Missouri-Kansas City. What type of work went on there at the 
university level?
    Mr. Graves. Well, that is ongoing and they are continuing 
to refine what they are doing, but one of their biggest 
projects was to conduct a survey among offenders being 
supervised by the probation and parole offices in Jackson 
County, where the greatest part of Kansas City is located. 
There are 12,000 offenders on parole in Jackson County at any 
one time and they interviewed them as to how much information 
they had received.
    With 12,000 people, we can't put all the people in jail 
that might come into our view, but we want to stop them from 
carrying a gun and decrease the violence before it gets to a 
court matter. The rescarchers found out by interviewing 
parolees that the media campaign was reaching the felons.
    They found out that 79 percent of felons in our area had 
been exposed to the campaign, and 73 percent of them had seen 
the TV ads. That seemed to be the most effective medium. And 74 
percent believed that it was very likely they would be charged 
with a felon in possession crime if they were caught with a 
gun. We have many, many anecdotal examples of police coming 
back saying that as they arrested a prior felon, he was 
reciting the commercials and reciting back the things that our 
campaign had put into the community.
    Senator Craig. Well, it must have been making it to their 
minds, and hopefully it will make it to their actions. Thank 
you very much.
    Mr. Meehan, you talked about an urban and a rural 
combining. Of course, the urban character of Philadelphia and 
the size of it create a certain type of law enforcement 
complication in itself that I am probably unaware of to some 
regard. Certainly, my State is much more rural State.
    Can you tell us how you got your district attorneys to buy 
in as it related to the cooperative effort, the training that 
went on and the commitment to work together on this kind of a 
program? We talked about staying power with the program, the 
consistency of keeping it. You have got to get the folks to buy 
into it first, with the belief that it will work.
    Mr. Meehan. Senator, I would be pleased to. I think really 
the key to the successes that we have had has been this 
partnership. It begins first with an experience that I had as a 
district attorney myself. Each of these men and women were my 
colleagues, so we had that personal relationship already.
    But when I was able to identify that Project Safe 
Neighborhoods dollars were coming in, we began to discuss the 
possibility. We all got together in Philadelphia, all nine 
district attorneys, and discussed the potential that we could 
work together to identify problems that would be unique to each 
area.
    Philadelphia, as a major urban center, has problems, as do 
many of our largest cities. But what often escapes people's 
notice is in places like Pennsylvania there are many urban, 
primarily industrial cities that are struggling to change into 
a new economy. But they are beginning to face, with the 
expansion of the drug trade, the infusion of violent criminals 
in their areas--Lancaster City; Allentown; Reading, which per 
capita had among the highest murder rates in the entire United 
States.
    So it was a very easy proposition to join together in the 
idea that we would partner and use the leverage of the Federal 
criminal statutes to be able to create stiff penalties for 
violent criminals and people who are felons in possession.
    Simultaneously, it is the district attorneys who know best 
the local law enforcement. They have the relationship with the 
local police, and by giving an Assistant United States Attorney 
and a Federal ATF agent or FBI agent to a full-time task force 
in each district, they create the ability to identify local 
problems, and then the resources are focused where we see the 
greatest need.
    Senator Craig. Patrick, some have raised concern about 
Project Safe Neighborhoods by suggesting that the program 
concentrates only on law enforcement of violation of Section 
922(g), possession of firearms by prohibited persons, and 
Section 922(c), use, carrying and possession of a firearm 
during and in Relation to a crime of violence or drug 
trafficking crime.
    What response do you have to those criticisms?
    Mr. Meehan. Well, my first response would be, Senator, 
those should be some of the people we are putting away for a 
long time--
    Senator Craig. I would think so.
    Mr. Meehan. --people who are using guns in the commission 
of serious felony crimes. But I would also suggest that that 
kind of an observation does not really touch the surface of 
what we are all experiencing in our own initiatives in each of 
our areas.
    I highlighted before the effort we have underway to work 
together in a multi-county way to look at these gangs that are 
moving along and committing armed robberies. Once you have a 
group that will do it, they will move from convenience store to 
convenience store. One group we broke up was going out late at 
night into hotels and robbing desk clerks.
    It is just a matter of time--I have seen it from 
experience--before somebody dies in that kind of an encounter. 
So we have used the Hobbs Act, as an example. Most importantly, 
we go after violent gangs and we have the ability at times to 
get somebody in possession of a weapon, and now we have the 
leverage and we can flip them and work up the line and get to 
serious people we haven't had the ability to get to before by 
leveraging all of these resources.
    Mr. McNulty. Senator, may I add something to that?
    Senator Craig. If you would, surely. Now that you have the 
mike, let me ask another question that I would like to have you 
dovetail into your comments on this particular question, and 
that is that some have suggested that the decline of homicides 
and violent crime in Richmond were not due to Project Exile, 
but would have occurred without Project Exile. I think you are 
aware of some of those claims. Combine that with the use of 
these particular areas of the criminal code and how you have 
dealt with them.
    Mr. McNulty. In addition to the importance of taking those 
who commit violent crimes with firearms off the streets as a 
priority, we recently had an indictment--and the cases have all 
been, I think, successfully completed at this point--of over 30 
people who were straw purchasers, that is people who do not 
have felony records who buy guns for people who do have felony 
records.
    A lot of effort has been placed in the last couple of 
decades on point-of-purchase identification to screen out 
felons who buy firearms. But, the fact is that if someone 
attempts to buy a girearm who does not have a criminal history 
record, that is not going to be an effective screen at all.
    We found an organization that had been recruiting people to 
buy guns and then to sell them out of the State, and we charged 
all of those individuals who were the straw purchasers with 
felonies based on another section of Chapter 44 of Title 18. 
The indictment had over 250 counts. So we are prepared to use 
other tools available to us, and we will.
    Now, with regard to the study concerning the impact of 
Project Exile in Richmond, I guess I really would have two 
things to say about that. First of all, as we said before, the 
results that Richmond experienced were startling. There was an 
enormous drop in violent crime when Project Exile was being 
implemented.
    Homicides dropped 48 percent. Crimes involving guns dropped 
65 percent. Aggravated assaults dropped 39 percent, overall 
violent crime dropped 35 percent. Every police officer was 
saying that people just weren't carrying firearms on the 
streets the way they had before, which was a serious problem.
    A large portion of those individuals had serious criminal 
histories, and so it defies common sense, pure and simple, to 
suggest that incapacitating individuals who had committed 
multiple offenses prior to their arrest and their serious 
punishment in the Federal system were not going to be 
committing future crimes if they remained on the streets. In 
other words, crime was averted, and there can be no question 
about the clear impact of incapacitating repeat violent 
criminals.
    Secondly, I know this study looks at the way in which crime 
dropped in other jurisdictions and concluded that Richmond may 
have achieved the same drop in crime because other places had a 
drop in crime that didn't employ Exile. My response to that is 
I have no doubt that there are other reasons why violent crime 
can be reduced. There are other methods, there are other 
effective tools.
    In fact, Project Safe Neighborhoods is designed to not be 
one-size-fits-all and to adapt to what is being used in other 
communities. So the notion that there may be reductions in 
other places that have been effective, to me, does not in any 
way suggest that the impact Exile has had has not been 
meaningful.
    The police officers and the prosecutors in Richmond will 
tell you that they noticed the result immediately when they 
started to see a number of the most violent people just simply 
off the streets, and that is what the program was all about.
    Senator Craig. Well, gentlemen, thank you all very much for 
your time and your testimony and the efforts that you have 
underway in your States in relation to PSN. The coordinated 
efforts and the resources that we are putting behind them now, 
and I am confident we will continue to put behind them, are 
valuable. The statistics are mounting up and criminals are 
beginning to recognize that the streets are not necessarily a 
safe place for them, and that is what this is all about. So 
thank you all very much.
    We have a second panel and I will ask that panel to come 
forward, please. I am going to put the Committee in recess for 
just a moment and step away just for one moment and I will be 
right back.
    [The Committee stood in recess from 10:54 a.m. to 10:56 
a.m.]
    Senator Craig. The Committee will come back to order, and I 
would ask our next panel to be seated, please.
    Again, the Committee wants to thank you for your time and 
effort to be here and to offer testimony as we build a record 
on this program and better understand how it is working across 
our country.
    First on our panel today is Russell Edward Spann, a captain 
with the West Valley Police Department, in Utah. As an 
important partner in Utah's coordinated effort, he supports 
Project Safe Neighborhoods, as his testimony says, because it 
allows them to go after repeat offenders and lock them away.
    Captain, we look forward to your testimony. Please proceed.

STATEMENT OF RUSSELL EDWARD SPANN, CAPTAIN, WEST VALLEY POLICE 
                 DEPARTMENT, WEST VALLEY, UTAH

    Captain Spann. Yes, Senator. Thank you very much for the 
opportunity to come before you today and discuss with you our 
efforts to reduce gun violence through Utah's Project Safe 
Neighborhoods program.
    In overview, I would like to express my appreciation to 
President Bush and Attorney General Ashcroft for their 
foresight in conceiving this very important program. I thank 
Senator Hatch for his leadership in bringing this program to 
Utah, and I also thank Hon. Paul Warner, United States Attorney 
for Utah, for his dedication and success in uniting Utah law 
enforcement and prosecuting agencies at all levels throughout 
Utah.
    The Bureau of Alcohol, Tobacco, Firearms, and Explosives, 
as the host agency for our PSN task force, provides guidance, 
resources and training, all of which ensures this program is 
successful.
    I would like to express to this Committee that the success 
of this program has been immediate for our local city of West 
Valley, and I am also assigned currently as the commander for 
the ATF Project Safe Neighborhoods task force in the State of 
Utah. As Mr. Warner has stated, this program is a statewide 
task force, not just in one area.
    I have worked in the last 26 years on a number of task 
forces, Federal, State and local, and I will tell you that this 
has been the most rewarding and successful in all of that time.
    For me, gun violence is a personal issue. In May 1991, I 
was shot during a SWAT entry of a drug dealer's home. Another 
officer, Kelly Rushton, was also shot and survived only because 
he was wearing a bullet-proof vest.
    In August of 1997, West Valley City police detective Robert 
Idle was shot seven times by a parolee. In 1999, Murray police 
officer Russ Huff was also shot by a parolee four times. Both 
of these officers survived.
    On July 6, 2001, Roosevelt City Police Chief Cecil Gurr, my 
dear friend and former chief, was murdered by a parolee and a 
meth user. In the following month, Lehi police officer Joe 
Adams was shot and killed while attempting to arrest a drug 
suspect with an outstanding misdemeanor warrant. And this past 
November 19, 2002, West Jordan police officer Ron Wood was shot 
and killed by a juvenile wielding a .40-caliber semi-automatic 
pistol during a foot pursuit.
    The most shocking aspect of these deaths is that the murder 
guns were either stolen or used in previous crimes. In each one 
of these murders, the shooter illegally possessed the gun when 
he pointed it at the police officer.
    The common denominator in each of these tragic examples has 
been guns and drugs. The lethal combination of rim fire rage, 
gun powder and methamphetamine in Utah homes has a synergistic 
effect on domestic violence. Nationally, domestic violence 
murders account for 11 percent of all homicides. In Utah, more 
than 45 percent of our homicides are domestic-related.
    We have a very high per-capita consumption of 
methamphetamines, and unfortunately meth is the number one drug 
of choice for Utah women. Add that to the fact that 65 percent 
of all of our domestic violence in Utah is meth-related and the 
proliferation of domestic gun violence is self-evident.
    This project is our best hope in interdicting gun violence 
generated by these risk factors. This task force is unique in 
several perspectives. Unlike many task forces I have been 
involved in where information is passed on and a confidential 
file is opened, in this case we embrace the local agency that 
refers the case and keep them as a partner throughout the 
investigation. They know the area best, they know their crooks 
the best, and they know the best solution for the prosecution 
we are going to select.
    Our task force members mentor the local officer who 
originally detects a gun crime or gun-related violence. This 
officer retains ownership of the case and thus has a vested 
interest in its outcome. Each case has and will create a long-
term partnership between the task force, the local agency, the 
community and the individual officer.
    The mission of our task force is expressed through three 
different priorities. They hold equal importance in reducing 
gun violence in Utah. The first is our message. Through our 
sister media outreach programs, we have developed a message 
that will educate the public about gun violence risk factors 
and how to report gun crimes before they escalate into 
violence. This educational process has made the general public, 
along with a number of our violators, very aware of the serious 
nature of illegal gun trafficking and gun possession.
    The next area is training. I am proud to inform this 
Committee that the Project Safe Neighborhoods Utah Task Force 
has trained almost 1,000 Federal, State, county and local 
police officers throughout the State during this past year. Our 
training includes basic recognition, reporting, gun tracing, 
and Federal laws and penalties. The message of the Project Safe 
Neighborhoods Task Force is amplified through each of these 
officers who attend our training.
    The third priority is enforcement. The Utah Project Safe 
Neighborhoods Task Force subscribes to a one gun, one crook 
enforcement theory. A number of indictments in Mr. Warner's 
complete testimony are replete with examples where a single 
offender with one gun was responsible for horrific gun 
violence. Our experience demonstrates that the Federal approach 
is the only sensible approach to these violators.
    Local police departments are frustrated when repeat 
offenders who are arrested numerous times on drug, domestic 
violence and other felony crimes are rarely incarcerated for 
extended periods of time and ofttimes do not see any time in 
jail at all.
    In one southeastern Utah case, over a five-month period of 
time a drug user was arrested ten times for a number of crimes, 
including drug use, domestic violence, threats, and burglary. 
In the State court, he received a cumulative total of 6 months 
in jail. We believe this would not be the case when these cases 
are referred to us.
    The effectiveness of a one gun, one crook strategy is 
expressed in the following numbers, also. Since January of this 
year, of the near 200 cases that have been referred to the U.S. 
Attorney's office through this task force, 112 of those cases 
screened had named offenders who currently are or previously 
have been on probation or parole from Utah State Prison.
    We treat every case we work with a local agency as a long-
term partnership. This task force has demonstrated an ability 
to work with all 110 agencies in Utah. In the last year, we 
have worked with 62 of those agencies in every geographic 
region of the State.
    Finally, this task force has the ability and resources to 
follow the guns and their traffickers across the State. Most of 
the agencies in the State of a rural nature have the desire, 
but ofttimes do not have the resources to do this, and we are 
able to do this and track these guns.
    Two stolen firearms in the possession of two different 
felons were tracked through three different Utah counties. Ten 
guns stolen during one burglary in one county were tracked to 
Texas, New Mexico and two different counties in Utah.
    I reaffirm my belief that the National Project Safe 
Neighborhoods program and the Utah Project Safe Neighborhoods 
Gun Task Force are this Nation's best hope of reducing gun 
violence. Indeed, every case of one crook with one gun may 
ultimately become one finger on one trigger causing one more 
senseless death. We are dedicated to the initiative that 
removes any gun from any crook's hand. Your continued support 
in this program will help us in that mission.
    Thank you. I would be honored to answer any questions you 
may have.
    [The prepared statement of Captain Spann appears as a 
submission for the record.]
    Senator Craig. Well, Captain Spann, thank you very much for 
your testimony.
    Let us turn to the Chief of Police of Newport News, Dennis 
Mook. Thank you, and welcome before the Committee. We move from 
one side of the country almost to the exact opposite.

  STATEMENT OF DENNIS A. MOOK, CHIEF OF POLICE, NEWPORT NEWS 
           POLICE DEPARTMENT, NEWPORT NEWS, VIRGINIA

    Chief Mook. Mr. Chairman, Senators, good morning. I am 
delighted to have the opportunity to testify before this 
Committee on such an important issue.
    I am the Chief of Police of the City of Newport News, 
Virginia. Newport News is a diverse urban city with a 
population of 182,000 residents. For perspective, Newport News 
is known, among other things, for building aircraft carriers 
and submarines for our United States Navy.
    I am in my 30th year as a police officer and my 10th year 
as a Chief of Police. For almost all of my adult life, I have 
worked either directly as a police officer or indirectly as a 
police supervisor or manager on the streets of the inner-city. 
I have witnessed dramatic changes in our culture in many 
respects during my career. Specifically in regard to this 
Committee's hearing today, I have witnessed dramatic increases 
in gun violence in the streets of our cities.
    The nature of violence has changed over the years in 
several respects. One major change is the increase in threats 
by offenders against their victims, their families, friends and 
witnesses. More and more, offenders cannot be brought to 
justice due to fear experienced by those who have knowledge of 
their illegal acts.
    In Newport News, we have experienced this very type of 
intimidation. Several dozen dangerous criminals had repeatedly 
terrorized certain neighborhoods in our city. In fact, one 
offender had been arrested more than 50 times for felony 
crimes, but had never been convicted due to the reasons I have 
just stated.
    Why did this happen? After all, the Newport News Police 
Department is a nationally-known, innovative police department, 
utilizing strategies of problem-solving and community policing. 
The Newport News Police Department is a professional, 
internationally-accredited agency that stresses suppression and 
prevention of crime through partnerships with our community. We 
are staffed by some of the finest men and women anywhere, so 
why were we not able to stop or deter these serial violent 
offenders?
    The reason is we tried to attack the issue in a traditional 
manner. By that I mean we acted as a singular agency. We 
demonstrated community policing at its best, but that approach 
was not enough. It was not enough because our strategies always 
focused on using one criminal justice system.
    It was only after we changed strategy and utilized the 
philosophy of taking advantage of the attributes of both the 
Federal and State criminal justice systems simultaneously that 
we saw real results. We partnered with the United States 
Attorney's office, the Bureau of Alcohol, Tobacco and Firearms 
and the Newport News prosecutor's office to form the Violent 
Crimes Task Force. Only then were we able to achieve success.
    Each criminal justice system, its laws and procedures, has 
certain strengths that make it advantageous to use for certain 
specific aspects of criminal investigations and prosecutions. 
In the formation of the Violent Crimes Task Force in 2001, 
detectives reopened, reviewed, reconstructed and reinvestigated 
hundreds of closed cases involving gun crimes. Virtually all of 
these cases ended in no arrest or dismissed charges due to 
repeated intimidation of victims and witnesses.
    The task force carefully chose and targeted 35 individuals 
who, in our opinion, were repeat violent criminals responsible 
for over 300 crimes. To date, the task force has been able to 
arrest all 35 individuals and have prosecuted successfully all 
but a few who have yet to stand trial. Eight of these 
individuals have been charged in six different murders. The 
others have been charged with numerous counts of maiming, 
robbery, firearm and drug violations.
    As a result of this partnership, reluctant victims and 
witnesses were brought before a Federal grand jury, assured 
anonymity and safety, and testified to the crimes they 
observed. It was the use of the combination of both systems 
that was necessary, as neither system in and of itself 
possessed all the attributes to make the effort successful. 
Additionally, none of the agencies alone possessed the 
resources to successfully accomplish the task at hand.
    The violent crime reduction initiative in Newport News 
resulted in a dramatic reduction in homicides and other violent 
crimes during the subsequent 12 months after its formation. In 
fact, homicides dropped by 42 percent.
    Project Safe Neighborhoods provides exactly the right 
ingredients and the right approach to assist localities in 
conducting gun violence reduction programs such as ours. A 
program such as Project Safe Neighborhoods is tailor-made for 
these efforts.
    Project Safe Neighborhoods provides for the flexibility to 
choose Federal or State prosecution to help ensure longer and 
more determinative sentences for criminals who possess or use 
guns illegally. The involvement of the Federal criminal justice 
system sends a message to citizens that law enforcement will do 
whatever is necessary to stop the violence. The message gives 
citizens confidence to come forward with information and 
cooperation.
    By strengthening the partnerships among local and Federal 
law enforcement agencies, a balanced approach of enforcement, 
prevention and intervention can be accomplished. Project Safe 
Neighborhoods provides a methodology for vital information-
sharing at every level, which results in increased 
effectiveness. Project Safe Neighborhoods provides the 
resources to create a program that reinforces the message that 
the community will not tolerate gun violence and will, 
together, do everything to prevent and suppress it.
    In conclusion, Newport News saw a gun violence problem that 
seemed as though it could not be solved. Only by innovative and 
creative partnerships, commitment of necessary manpower, 
resources and money, as well as the tenacity of local and 
Federal law enforcement officers and prosecutors, did we make a 
difference in the lives of our citizens by taking the most 
violent-prone serial criminals off the streets and out of the 
community.
    Other localities with similar problems may not have the 
resources available, nor the willingness of other agencies to 
achieve similar results. The Project Safe Neighborhoods program 
provides the needed assets for a successful strategy to the gun 
violence reduction issue, as well as generates those resources 
and incentives for the essential partnerships that have to be 
formed in order to remove serial violent offenders from the 
streets of our city.
    Thank you, Senator.
    [The prepared statement of Chief Mook appears as a 
submission for the record.]
    Senator Craig. Chief, thank you very much for that 
testimony.
    Now, let me turn to the District Attorney from Lancaster 
County, Pennsylvania, Donald Totaro. Welcome before the 
Committee, Donald.

    STATEMENT OF HON. DONALD R. TOTARO, DISTRICT ATTORNEY, 
                 LANCASTER COUNTY, PENNSYLVANIA

    Mr. Totaro. Thank you very much. Good morning, Mr. 
Chairman. It is an honor to be here and I would like to thank 
you for the opportunity to discuss this morning an issue that 
is of vital concern to Lancaster County, Pennsylvania.
    My name is Don Totaro. I have been a local prosecutor in 
Lancaster for the past 16 years. We have a population in 
Lancaster County of approximately 470,000 residents. We are 
located approximately 65 miles west of Philadelphia.
    Despite enjoying a reputation for rolling farmland and the 
Amish, in the late 1990's and in 2000 we experienced a 
tremendous increase in gun crime, particularly involving drug 
dealers and gang members. In 1999 alone, Lancaster County 
experienced ten firearm-related murders. One shoot-out took 
place across from an elementary school while the kids were 
outside playing. Another occurred near the same school, 
resulting in the death of an innocent bystander. City residents 
lived in fear and the police faced constant danger.
    Unfortunately, in Pennsylvania the penalties for many 
criminal offenders who possess firearms are completely 
inadequate. For example, a drug dealer who possesses a firearm 
is one of the most dangerous predators on our streets. However, 
if that armed drug dealer possesses less than two grams of 
cocaine, no mandatory sentence applies and he may be facing a 
few months in prison or even probation. A few months in jail is 
a simple cost of doing business for these drug dealers. The 
lack of a mandatory minimum sentence eliminates any attempt at 
deterrence.
    Without resources to protect our citizens against dangerous 
criminals, I began to explore other options to attack this 
problem. One program was Project Exile in Richmond, Virginia, 
that we have heard a lot about this morning.
    In that program, I saw that local prosecutors under similar 
circumstances partnered with the U.S. Attorney to handle 
firearm offenders in Federal court. I also noted that the gun 
crime rates in Virginia dropped to their lowest levels in 
nearly a quarter century after implementation of the program.
    Armed with this information, on May 23, 2000, I met with 
the former United States Attorney for the Eastern District of 
Pennsylvania. And although I was advised at that meeting that 
we would become a part of their Federal Operation Ceasefire 
program, all subsequent cases that we referred to the U.S. 
Attorney were declined for Federal prosecution.
    To be perfectly candid, I was not surprised because 
historically we had not enjoyed open lines of communication 
with that office. Lancaster County is the western-most county 
in the Eastern District of Pennsylvania, and when you contrast 
the numbers to the numbers in Philadelphia, our numbers do not 
compare. However, the severity of Lancaster's crime problem and 
the significant impact of the increase in Lancaster were 
significant to those who lived in that county.
    Fortunately, in July of 2001 our relationship with the U.S. 
Attorney changed drastically. Even before taking office as 
United States Attorney, Pat Meehan convened a meeting of all 
district attorneys within the Eastern District, at which time 
he advised county prosecutors about a Federal program called 
Project Safe Neighborhoods that was being developed to combat 
gun violence.
    Mr. Meehan encouraged us to apply for Federal grant funding 
to hire additional prosecutors who would be cross-designated as 
Special Assistant United States Attorneys to prosecute firearm 
offenses in Federal court. Despite my skepticism from past 
experience, I supported the efforts of Mr. Meehan and applied 
for the grant funding. We were approved and an additional 
position was created by our county commissioners because of 
that Federal grant funding.
    My expectation was that the gun prosecutor would work with 
Federal authorities to prosecute a limited number of gun 
offenses in Federal court. I quickly discovered, however, that 
the Project Safe Neighborhoods program was serious about 
referring local firearm cases to Federal court.
    Whereas I initially questioned the commitment of the United 
States Attorney's office, I now regretted the fact that I did 
not apply for the four prosecutor positions eligible under the 
grant funding proposal. Despite establishing only one position 
through Federal grant funding, I chose to cross-designate a 
total of four assistant district attorneys as special AUSAs to 
participate in this program.
    To date, over 20 local cases have been adopted for Federal 
prosecution by the United States Attorney. In one particular 
case, a repeat offender who was facing a 5-year sentence in 
State court received a Federal sentence of 15 1/2 years. In 
another case, a persistent street criminal in Lancaster 
received a Federal sentence of 51 months in prison, rather than 
the possibility of a 15-month recommended sentence in State 
court.
    These Project Safe Neighborhoods cases have generated 
significant coverage in the local media. Additionally, this 
message has been reinforced within the confines of Lancaster 
County Prison, which is where that Assistant United States 
Attorney went to meet with some of the inmates.
    The videotape that you will receive is remarkable. You will 
see a transformation from beginning to end in these inmates and 
their perception of reality when they hear of the Federal 
penalties if they re-offend. This videotape will be replayed. 
We have the commitment of the warden that it will be replayed 
to new inmates to remind them of their fate if they re-offend 
with a firearm. Further, our county probation department now 
provides all convicted criminals with a form they must sign 
identifying the Federal consequences of a former convict who 
possesses a firearm.
    Because of public exposure to lengthy sentences that may be 
served a great distance from Pennsylvania, Project Safe 
Neighborhoods is serving as a deterrent. Defendants are now 
asking to plead guilty in State court, pursuant to a negotiated 
plea that greatly exceeds the standard range of the State 
sentencing guidelines. One cooperating defendant recently 
sentenced in State court advised a prosecutor that he will 
continue to sell drugs when he is released from prison. 
However, he will no longer carry a firearm.
    Furthermore, a comparison of Lancaster City robberies 
committed with firearms between 2001 and 2002 is very 
promising. In 2001, there were 119 robberies committed with 
firearms. In 2002, there were 73. Through the first 3 months of 
this year, there have been 14 robberies with firearms.
    In conclusion, our new partnership with the United States 
Attorney for the Eastern District of Pennsylvania has been 
unprecedented. With the implementation of Project Safe 
Neighborhoods and the distribution of Federal grant funds, 
prosecutors from the Lancaster County District Attorney's 
Office have worked as a team with United States Attorney Pat 
Meehan and his staff to aggressively prosecute firearm 
offenders under Federal law.
    We now have critical resources to attack violent criminals, 
ensuring swift and substantial punishment. The message is 
clear, concise and easily understood, serving as a deterrent to 
others. The Lancaster County District Attorney's Office stands 
in full support of Project Safe Neighborhoods, and I would 
again like to thank you for the opportunity to speak this 
morning.
    [The prepared statement of Mr. Totaro appears as a 
submission for the record.]
    Senator Craig. Well, thank you. That is fascinating and 
valuable testimony, as we see this program implemented across 
the country.
    Now, let us turn to Charles Curtis. Mr. Curtis is President 
of the Kansas City Metropolitan Crime Commission, in Kansas 
City, and is Chairman of the Kansas City Crime Commission.
    Mr. Curtis, welcome before the Committee. We understand the 
commission has an interesting history in organized crime.

    STATEMENT OF CHARLES L. CURTIS, PRESIDENT, KANSAS CITY 
      METROPOLITAN CRIME COMMISSION, KANSAS CITY, MISSOURI

    Mr. Curtis. Thank you for having these hearings and thank 
you for inviting me.
    The commission was started in 1949 as a watchdog group to 
watch over law enforcement to make sure malfeasance didn't 
occur and over time it has evolved into a group that aids law 
enforcement. So it was in this capacity that we received a 
visit from the U.S. Attorney in 2000, asking us if we would 
participate in Project Ceasefire.
    An idea came out of the attorney's office that was, I 
think, somewhat unique. They said, you know, we can put these 
people in jail, but there are so many of them, it would really 
be better for all of us if we could let people know of the 
program and just keep the felons from carrying the guns, and 
that would also achieve our goals in perhaps a more cost-
effective manner.
    So, in addition to the cooperation that we have heard 
testified to today between local law enforcement and Federal 
law enforcement, and in our case across the State line of 
Missouri and Kansas, we had two other goals. The first goal was 
to publicize this program very widely, to advertise, and then, 
second, to research it thoroughly so we could understand if the 
advertising was being effective.
    As Todd Graves mentioned earlier, we raised this money 
privately for the most part, $1.4 million, and we felt an 
obligation to our donors to give them that accountability so 
that they would understand that the advertising was working and 
making people aware of the penalties, and consequently the 
reduction in crime.
    I think the key number here is the one that Todd referred 
to that we have sentenced over 300 people in the program, so we 
know the sentencing is very effective. What we were interested 
in was, in addition to that, could we affect the behavior of 
the 12,000 felons who were under supervision, would we persuade 
them not to carry the firearm.
    We wanted to get that message to them not to carry the gun, 
but also those people around them--their mother, their wife, 
their girlfriend--so they would also try to persuade that 
person not to go out of the house with a gun, often a habit 
that had been established. And so when they would get in 
trouble, that firearm would be awfully convenient.
    So in 2000, at the Kansas City Metropolitan Crime 
Commission we began building a war chest, a private funding for 
the advertising for a several-month period of time from private 
companies and foundations. We raised $1.4 million and then we 
used to buy advertising on television, billboards, and on bus 
sides.
    The television commercial featured the well-known defense 
attorney Johnnie Cochran. When the commercial began--I will see 
if I can describe it to you--the viewer didn't know who was 
speaking in the commercial. It was Johnnie Cochran, but you 
didn't know; he was out of camera range. But you could hear his 
voice and he was saying if the police didn't read you your 
rights, a good defense attorney can probably get you off. And 
if the prosecution witnesses are not credible, a good defense 
attorney can probably get you off.
    And at that point, he sat down and he came into the light 
and you could see it was Johnnie Cochran, and he said, but if 
you are a felon and you carry a gun, even I can't get you off. 
And then the closing line was ``Felons with guns serve 5 
years,'' and that was the line on the bus sides and the 
billboards, too. So those ads ran in 2001 and 2002.
    We turned to the University of Missouri-Kansas City, to two 
criminologists there. We asked them to independently track, 
before the campaign ran, the awareness of gun penalties, and 
then after it ran the awareness of gun penalties. We have had 
some testimony already as to some of those results.
    As we were even gathering the data, we had anecdotal 
information that this campaign was working. I have a couple of 
examples here. A suspect who confessed to a robbery told 
detectives, quote, ``I went to my friend Leon to ask him if I 
could borrow a gun, and he, Leon, said, Sean, you know if you 
take this gun it is going to be 5 years if you get caught.'' So 
we could see the 5-year message was getting through.
    Another defendant who confessed to passing bad checks 
denied having a gun. He told the detectives that he was a 
convicted felon and not even Johnnie Cochran could get him off 
if he carried a gun. So we were hearing that line played back 
to us. We had the right spokesman.
    In the final results, the professors reported that 80 
percent of the offender population had been exposed, and when 
we asked them the question how much time do felons with guns 
get, 91 percent answered 5 years. So we could see that they 
were getting the message. As has been testified to earlier, the 
murder rate in Kansas City, Missouri, declined 23 percent last 
year, to a 30-year low. Metro-wide, the report concluded that 
Project Ceasefire had prevented 22 homicides and 50 violent 
crimes.
    So we have just launched our third year of Ceasefire 
advertising. It has been expanded to Springfield, Missouri, St. 
Joseph, and Wichita, Kansas. Television commercials and 
billboards will again remind the felons that they will burn 5 
years in Federal prison if they are caught with a gun. And it 
is our hope that the anecdotal information, as well as the 
research data that has been promising thus far, will continue.
    So thank you again for this hearing and thank you for 
giving me the opportunity to share with you our experience on 
Project Ceasefire and its role in Project Safe Neighborhoods.
    [The prepared statement of Mr. Curtis appears as a 
submission for the record.]
    Senator Craig. Well, thank you, Mr. Curtis. There is a bit 
of an old adage out there that advertising pays, and I think 
any of us who have been in public life, especially in the first 
experience when our name goes up on television and our image 
goes up on television, are always amazed at the impact in the 
public. Messages can be communicated and people do respond to 
messages, and it also holds true with the criminal element and 
apparently your effort is clear proof of that. Thank you very 
much for that testimony.
    Now, let us move to Professor Alfred Blumstein. Professor 
Blumstein is from Carnegie Mellon University, in Pittsburgh, 
Pennsylvania. We welcome you before the Committee and look 
forward to your testimony. Please proceed.

 STATEMENT OF ALFRED BLUMSTEIN, UNIVERSITY PROFESSOR, CARNEGIE 
          MELLON UNIVERSITY, PITTSBURGH, PENNSYLVANIA

    Mr. Blumstein. Thank you very much, Mr. Chairman, Senator 
Sessions. I am really pleased to be here. My perspectives are 
obviously going to be different from the people directly 
involved in implementing phases of Project Safe Neighborhoods. 
Let me first start by summarizing where I sense some of the 
major understanding has emerged over the last several years.
    First, we know how serious a problem the gun violence 
problem is in the United States, and it is a distinctively 
American problem. It just characterizes this enormous 
difference between us and the countries we compare ourselves 
with.
    We have learned over the last 10, 15 years how dangerous it 
can become when guns get into the hands of young people who 
don't have the restraint that older folks have. We understand 
much more about the contagion of guns, both the contagion of 
gun-carrying and the contagion of not carrying. As gun-carrying 
escalates, more and more people do it. As we find means to stop 
it and turn it around, we see a reduction more broadly.
    We know that many of these guns that are used in crimes 
come through an illegal mechanism, partly burglary, but much 
more through straw purchasers and through illegal purchases or 
through corrupt dealers arranging to send them out. We also 
know that a relatively small, limited number of dealers are 
responsible for a disproportionate amount of the illegal guns.
    We have also learned that the guns used in crimes tend more 
often to be new guns rather than old guns. So that again puts 
attention to the marketing aspect. We have learned through 
crime-gun tracing an awful lot about the mechanisms by which 
guns move, an awful lot about who is carrying them, and the use 
of guns by gangs and criminals. So there is much more we can do 
now with this new insight coming from the crime gun tracing.
    We also know that aggressive policing in neighborhoods 
where there is a lot of gun crime going on is a means of 
stopping the gun crime. And we can determine where the gun 
crimes are from 911 calls, from the reports of the crimes, and 
simply from the reports of shots fired so we know where to 
target some of that aggressive policing.
    We also know that deterrence theory tells us that 
increasing sanctions reduces the volume of the crime, but we 
also know that the certainty of prosecution and the certainty 
of conviction is more powerful than the severity of the 
conviction or the length of the sentence.
    As we pull all of these observations together, we know that 
with gun crimes there are a limited number of themes that drive 
the effort on gun crimes. One is crime-gun tracing and the 
follow-up to identify the illicit markets that are contributing 
to the flow of the guns in those gun crimes tracing is very 
helpful in identifying the mechanisms of the straw purchasing 
and the illicit dealers that are contributing to the presence 
of those guns.
    We also know that aggressive police pursuit in high-risk 
neighborhoods can be effective, and we can run experiments to 
find out how well they work in different contexts. And we know 
that deterrence is an important and salient mechanism for 
contributing to that.
    Since we have a relatively limited range of kinds of 
options that we can pursue, it becomes particularly valuable to 
start to coordinate the accumulation of knowledge that is 
coming out of the 94 U.S. Attorneys' offices that are 
performing in Project Safe Neighborhoods. It argues, therefore, 
that there ought to be more melding together of the effort and 
of the knowledge. It is important that we run more careful 
studies and more careful analyses so that we can identify, not 
for this year but for the next decade, what kind of tactics are 
most effective in what kind of contexts.
    And that will come not just in the individual communities 
of the U.S. Attorneys' offices, but through aggregation of the 
data across the offices. My sense is that is going to be a 
necessary next phase in the development of this program and it 
will be extremely desirable and important. My sense, therefore, 
is that we should devote at least a significant portion of the 
program funds in Safe Neighborhoods to organizing a coherent 
multi-site research effort to get an assessment of those 
effects.
    Let me just summarize my main points. I certainly agree 
that gun violence is a crucial and distinctively American 
problem that must be addressed. I certainly accept many of the 
benefits of the decentralized strategy that we have been 
pursuing, allowing local option and local assessment of where 
the needs are.
    But I think we now are at a position where we could start 
bringing that information together by coordination through a 
central operation funded by the National Institute of Justice, 
with some prime contractor coordinating the design and the 
analysis, working in conjunction with the U.S. Attorneys' 
offices to start to build the knowledge base.
    So far, we have an experience base and if we could 
transform that into a meaningful knowledge base, I think the 
Nation will be much better served in finding how best to apply 
aggressive patrol, how best to interdict illicit markets, and 
to stop the gun violence even before it results in the crimes 
that are being prosecuted so vigorously.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Blumstein appears as a 
submission for the record.]
    Senator Craig. Thank you for that important testimony.
    Our last member of the panel this morning is Professor Jens 
Ludwig, from the Georgetown Public Policy Institute at 
Georgetown University here in Washington, D.C.
    Welcome before the Committee and thank you for being with 
us.

STATEMENT OF JENS LUDWIG, ASSOCIATE PROFESSOR OF PUBLIC POLICY, 
            GEORGETOWN UNIVERSITY, WASHINGTON, D.C.

    Mr. Ludwig. Thank you, Chairman Craig and members of the 
Committee. It is an honor to appear before this Committee as 
you consider the role of Project Safe Neighborhoods in reducing 
gun violence in the United States.
    Project Safe Neighborhoods dedicates hundreds of millions 
of dollars to reducing gun violence throughout the country. 
This is an important and positive first step, given the 
substantial costs that gun violence imposes on the United 
States, which are estimated to be on the order of $100 billion 
per year.
    The main theme of my comments is that there may be ways to 
reallocate the funding available for PSN that would enhance the 
program's effects on gun crime. Specifically, it may be more 
effective to focus on increasing the certainty with which gun 
violators are caught, for example, by dedicating more money to 
police patrols against illegal guns, compared to the effects we 
might expect from increasing the severity of the prison 
penalties for those who do get arrested for gun violations.
    Project Safe Neighborhoods is modeled in part on Richmond, 
Virginia's Project Exile, a program that emphasizes prosecuting 
gun cases in the Federal courts and thereby lengthening the 
prison sentences handed out to those who violate gun laws.
    The expansion of Project Exile through PSN is motivated in 
part by the perceived success of Exile, which was announced in 
Richmond in February 1997. From 1997 to 1998, gun homicides 
declined in Richmond by around 40 percent. It is widely 
believed that this reduction was caused by the Project Exile 
program itself.
    However, in my judgment, Project Exile has had a much more 
modest effect on crime in Richmond than most people believe. In 
a recent study that I conducted with Professor Steven Raphael, 
of the University of California at Berkeley, our analysis of 
FBI crime data suggests that most of the reduction in gun 
homicides observed in Richmond following the launch of Project 
Exile would have happened anyway, even if Exile had never been 
implemented.
    The explanation comes from the fact that Richmond 
experienced an unusually dramatic surge in crime before Project 
Exile went into effect. All across the country, cities that 
experienced unusually large increases in crime through the 
early to mid-1990's went on to experience unusually large 
declines afterwards.
    Because Richmond is one of those cities that had an 
especially large increase in crime through the mid-1990's, we 
would have predicted an exceptionally large decline in Richmond 
after 1997, even if Project Exile had never gone into effect.
    This does not necessarily mean that devoting additional 
resources to prosecuting and imprisoning those who violate 
firearm laws has no effect. I only mean to suggest that the 
effects of the Project Exile strategy are likely to be far more 
modest than many people seem to believe based on current common 
wisdom about Richmond's experience.
    Put differently, spending money under Project Safe 
Neighborhoods on Project Exile-style prosecutions is unlikely 
to be a silver bullet for the problem of gun violence. On the 
other hand, a growing body of research suggests that putting 
additional resources into targeted police patrols against 
illegal guns may be a more effective way of reducing gun crime 
than handing out longer prison sentences for firearm 
violations.
    This is consistent with the view that many criminologists 
and economists hold, and was articulated by Professor Blumstein 
in his remarks, that for a given amount of criminal justice 
spending, we can deter more crime by increasing the certainty 
rather than the severity of punishment.
    In sum, if the best research currently available is 
correct, the overall impact of Project Safe Neighborhoods on 
gun crime might be enhanced by redirecting some resources away 
from trying to lengthen the prison sentences handed out to gun 
offenders and instead devoting these resources to additional 
police patrols designed to catch those who carry guns 
illegally.
    Thank you, Mr. Chairman. I would be pleased to answer any 
questions.
    [The prepared statement of Mr. Ludwig appears as a 
submission for the record.]
    Senator Craig. Mr. Ludwig, thank you, and thank you for 
that interesting and challenging perspective. We will pursue it 
in a moment.
    Let me start back down through our panelists with a couple 
of questions. When Senator Sessions joins me, I will turn to 
him. He has to be on the floor by noon, and we want to also try 
to wrap this up at least in that time frame.
    Captain, in your testimony you cited an unprecedented level 
of cooperation among Federal and local law enforcement agencies 
in Utah. We have heard frequently the difficulty of 
coordination, oftentimes rivalries between different levels of 
law enforcement in our country.
    How were you and other law enforcement agencies able to 
accomplish the coordination you have referenced?
    Captain Spann. We had the immediate support from Mr. 
Warner, and his office was going to take the project on and 
take it on seriously. He challenged the different law 
enforcement and prosecuting agencies in the State to try to 
overwork him. He said you can't; we will have prosecutors to 
take the cases. So he delivered on the promise that any cases 
brought forth would be prosecuted by his office as long as they 
met the guidelines.
    We would also try to look toward the Olympics we just had 
in 2002, and that level of cooperation that began there 
continued on after the Games. The support we had nationwide 
from agencies that came in in support of the Games, along with 
all the Federal agencies and the local agencies that stepped 
forward, was instrumental in getting this program to be 
successful.
    Senator Craig. Well, I hadn't thought of that, but I was 
certainly aware of law enforcement communities of Idaho 
participating with you and participating with Utah in some of 
the coordinating efforts that were underway for the Olympics. 
It was obviously a very high-profile Olympics in a post-9/11 
environment. So that makes some additional sense, certainly. 
Thank you.
    Chief, your testimony references me to an obvious 
frustration you had on the streets of Newport News and the 
inability to get things done, and now you sense that things are 
happening. I am saying this in reference to what Professor 
Ludwig said about--I am a little frustrated about rounding them 
up, but not locking them up, or prosecuting them or carrying it 
through.
    Part of the frustration I have always heard from the law 
enforcement community is that revolving door out there of 
putting violence back on the street and ultimately having to 
take it off again. What I am hearing from you, I think--and you 
mentioned it, I think, in the work that is getting done--is the 
ability to move ahead with a higher level of extraction, if you 
will, from the streets of violent criminals in your experience 
under this program.
    Could you reference that a little more and possibly explain 
what you meant about the uniqueness that this is offering you 
and the task forces involved?
    Chief Mook. Yes, sir. The particular frustration we 
experienced was using the State criminal justice system alone. 
There is no fear from the criminals of the State system. It is 
not quite a revolving door, but the penalties and the way it is 
configured are much less effective.
    Senator Craig. At least it is a slower door.
    Chief Mook. It is a slower door, yes, sir. But the problem 
that happened is we would arrest individuals for violent crimes 
and they would intimidate their victims or witnesses or 
families and they would be bonded out almost immediately. 
Therefore, the fear of testimony by victims or witnesses was 
real, and subsequently those charges were later dismissed or 
the person was acquitted. This went on and on, and the 
criminals were free to continue to commit violent crimes.
    When Mr. McNulty became U.S. Attorney, he came to me and 
said, what can we do, what can my office do to help you in the 
localities? And I responded by saying we need to form a 
partnership where we use a combination of the State and Federal 
systems, whichever is more appropriate for the particular 
charges.
    With witnesses, the Federal grand jury system provided 
anonymity and safety for people to come forward and testify, 
where they were afraid in the State system because as soon as 
they were arrested, they were bonded back out. The bond was not 
there for the Federal system. Once we had them in Federal 
custody, they remained in Federal custody until their trial. So 
the fear was then lessened and more and more people came 
forward, thus a snowballing effect.
    As the word got out in the community, as a City of Newport 
News detective and a Federal law enforcement agent walked arm 
in arm and interviewed people, the word spread quickly that 
they mean business; this is serious, they are taking this to 
the Federal court.
    Senator Craig. That is interesting testimony, dovetailed 
with what you have mentioned, Mr. Totaro. You pointed out, I 
think, in your testimony the inadequacy of State sentencing 
provisions. Hence, in the past many felons considered a few 
months in prison simply a cost of doing business. That is a 
phenomenal statement, but I suspect for those who are in the 
business that is a reality, at least to their observation or 
lifestyle.
    I know you touched on it in your testimony, but I would 
like you to describe in detail whether felons are becoming 
aware of the consequences of carrying a firearm under what is 
now going on in Pennsylvania and in light of this cooperative 
effort and sentencing through Federal law versus State law.
    Mr. Totaro. Yes, sir, I would be glad to. As I previously 
indicated, we anecdotally can identify specific cases where 
felons have approached us. The one comment by the one gentleman 
who was a cooperating witness for us in a homicide who himself 
had pending drug charges--when his case was resolved, that 
comment was made to the assistant district attorney prosecuting 
the case that, well, basically I am going to, when I serve my 
time, go back out on the street and deal drugs, but I will not 
have a firearm, fully realizing what the penalties were and 
what we were doing in Lancaster County.
    We have had other cases where, interestingly enough, 
defense attorneys have tried to, after their client had been 
arrested for drugs and guns or other firearm offenses, quickly 
schedule a guilty plea with the judges in the Court of Common 
Pleas, thinking that by doing so the case would not be referred 
for Federal prosecution.
    So we have obviously tried to identify at an earlier stage 
cases that we would refer for Federal prosecution, then consult 
with U.S. Attorney Meehan, Rob Reed and other members of their 
office on whether they would, in fact, be forwarded. So we have 
seen that happen.
    As I indicated, we have seen defense attorneys and we have 
had them come to us and ask us for specific offers for some 
sort of a negotiated deal in county court that would far exceed 
what the standard range of the sentencing guidelines would call 
for pursuant to the Pennsylvania Commission on Sentencing 
because they do not want to face the consequences of Federal 
court.
    I think part of that also is based on the outreach that we 
are trying to create in Lancaster County. We have put together 
a community outreach task force with the mayor, with 
councilmen, with police. We have really tried to bring 
everybody to the table to determine the best way, the best 
method of getting this message out to the criminals, those most 
likely to possess these firearms, and I think that has helped 
as well.
    I think I indicated other areas--the videotape at the 
prison, the forms now that must be signed by everybody that 
goes through the county probation system. These are all 
different ways that we are using to get the message out.
    Senator Craig. Well, I thank you. I have got some other 
questions, but let me turn to my colleague for any questions he 
might want to ask before he has to leave us.
    Senator Sessions. Thank you, Mr. Chairman.
    I talked to the United States Attorney in the Southern 
District of Alabama, my old office. He told me that they have 
named their program throughout the State Project ICE, and 
people are being arrested and they are saying ``don't ice me.'' 
So the message does tend to get out, and I think it got out 
when I was United States Attorney when we had Project 
Triggerlock. I sent out a newsletter to all the local sheriffs 
and chiefs of police, and people picked up on it and 
prosecutions went up substantially.
    The Montgomery, Alabama Chief of Police in the Middle 
District of Alabama attributes Project ICE to a tremendous 
decrease in violent crime. I understand they expect to have 
about a 300-percent increase in gun prosecutions in Federal 
court this year. Murders this time last year were 16 and there 
are only 3 this year.
    Now, I know Professor Ludwig would say that is anecdotal 
and probably a lot of factors went into that. But if you have a 
20-percent reduction in murders, if we could sustain a 20 
percent by this one technique, I can't think of anything else 
that would be so effective as that.
    Professor Blumstein, I think you are correct, and I am 
coming more to believe that this Department of Justice needs to 
spend more time on research, whether it is how to make a gun 
court work or a drug court work, or how to make Project Safe 
Neighborhoods work. The best science would be what we should 
apply. So when a community decides in Utah or wherever to adopt 
a plan, it can look at really scientific, peer-reviewed, 
rigorous studies that help them with that.
    Considering how much money we spend on all these other 
things, do you think the Department of Justice ought to spend 
more on research on all kinds of criminal matters?
    Mr. Blumstein. There is no question that it can and should, 
and that we desperately need the kind of accumulation of 
knowledge that looks at the operations going on and that 
extracts from those operations the knowledge base that will 
help in making future decisions.
    It is not to say we should stop doing what we are doing 
until the knowledge comes in, but to use the information we are 
getting so that future decisions will be much better informed.
    Senator Sessions. Mr. Chairman, we had hearings here at one 
point several years ago and examined the gun prosecutions of 
the Department of Justice. There were a lot of high-profile 
crimes while you were here before I came, making it a Federal 
crime to carry a firearm on a schoolyard, a Federal crime for 
various other offenses, a whole host of those kinds of discreet 
offenses.
    But the numbers showed there were only 2 prosecutions a 
year, 5 a year, in the whole United States of America. The 
truth is what these prosecutors who testified earlier said--
these are the bread-and-butter crimes. I don't know who put 
that chart up, but 922 and 924 are carrying a firearm during a 
drug offense or any crime, or you catch an offender at a bank 
robbery or a drug offense and he is using a firearm. They get 
whacked with 5 years without parole, consecutive to any other 
penalty they get for the underlying criminal offense. That is a 
very powerful tool that the Federal court has.
    922 deals with possession of a firearm by a convicted 
felon, primarily. It penalizes a person who sells a gun to a 
convicted felon, all kinds of peripheral things. But the bread-
and-butter prosecutions are the convicted felons who are 
possessing firearms. It has a less penalty, but it is a 
significant penalty, enough to deter, I think, anyone from 
carrying that.
    So what I would say is we need to quit talking about new, 
esoteric penalties that are unlikely to get passed in this body 
anyway that don't have public support and continue this kind of 
intensive utilization of the crimes that are there everyday and 
target criminals who are capable on a regular basis of 
threatening people's lives.
    We had in our district a major drug-dealing organization. 
The neighborhood was really disrupted by it. and I remember, 
Chief, that we had two people; one had been convicted of murder 
of a policeman and had it set aside because he didn't have the 
warrant in hand for a misdemeanor that he was making an arrest 
for. Another one had attempted murder. Several of them had 
multiple criminal histories. They had firearms and that kind of 
thing, and they went off for long periods of time. And that 
whole neighborhood was clearly safer and the people in that 
neighborhood were very, very pleased that that gang had been 
broken up.
    I like what the Department of Justice is doing. I like what 
you are doing in partnership with one another. For every 
Federal officer, there are ten State officers, maybe more. If 
we don't work together, we don't have good sense. If you came 
in here from Mars and you wanted to talk about how to decrease 
crime in America, you would certainly not create a plan that 
did not involve deeply the local law enforcement community.
    So I think it is important for us to celebrate some of the 
things that have been happening. This new initiative--I believe 
that rigorous research will show that it has positively 
impacted crime in America, and if we study it rigorously and 
intensively, we might find some techniques that make it even 
more effective.
    I am sorry to have to return to the floor, but I just 
wanted to share those thoughts. This has been a very important 
matter to me throughout my criminal practice. I was appointed 
United States Attorney in 1981 and did that for about 12 years 
and gun prosecutions were a big part of what we did.
    I think it can impact young people. Someone mentioned young 
people carrying guns. There was a program that was established 
and won a national award: Kid With Gun, Call 9-1-1. And so 
grandmothers and other children who saw a young person with a 
gun were encouraged to call the police, and they could come out 
and perhaps intervene before something dangerous happened. 
There are a lot of little things that can be done to reduce gun 
violence in America.
    We are not going to eviscerate the Second Amendment. I 
don't think we should and I would resist that and I don't think 
the American people want that. But we have got a lot of tools 
now, we really do, and some tough penalties, also, that work.
    Senator Craig, I appreciate your leadership on this issue 
over a period of years. There is hardly anyone here in the 
body, I am sure, who knows it more than you do, and I thank you 
for conducting this hearing.
    Senator Craig. Well, thank you for your commitment, 
involvement and the raw experience. You have the kind of 
experience out there in the application of these laws that few 
of us have and that is appreciated on this Committee.
    Obviously, Mr. Curtis, advertising pays, or at least an 
informational flow going out to the elements of our community 
that might be most reactive to it. It sounds like it is paying 
off in Kansas City.
    Let me ask this question of the rest of you. We have 
Pennsylvania, Virginia and Utah. Have you utilized television? 
Have you been able to actually advertise on television to 
communicate a similar kind of message to that that they did in 
the Kansas City area?
    Captain Spann. We have just begun our media outreach 
program. However, we have utilized a number of the PSAs and 
news broadcasts to get the information out to local groups, but 
not on the media yet.
    Chief Mook. Yes, sir, we have done most of our advertising 
through Virginia Exile and it is such an important effort to 
the community. Most of the advertising dollars were raised by 
the community, so it wasn't that government had to spend the 
money on it. It has been very effective.
    Senator Craig. Don?
    Mr. Totaro. Senator, we are now in the process of doing 
just that. We have looked at some of the public service 
announcements. We are talking to our local stations to see if 
they will air those. So that is something we are absolutely 
looking forward to.
    Senator Craig. Excellent.
    Professor Ludwig, I am curious about some of your 
observations. I hope we have available some of your studies. I 
am curious to read some of your findings or your observations 
in relation to Project Exile and your reaction to it.
    Let me ask this question of you. I make the general 
assumption that when there is a spike in crime that there is a 
public reaction to that, and therefore a reaction in the law 
enforcement community that usually follows. So as that occurs, 
while Project Exile was implemented and used in the Richmond 
area, and you mentioned other areas had crime and it declined, 
my guess is--and I may guess wrong and you can respond because 
you have studied it--there were other kinds of efforts underway 
in response to that spike in crime.
    If that is true, was there an effort to evaluate the pieces 
of the process? Here we had in Richmond the use of the Federal 
firearms laws, the sorting out, if you will, and trying to 
identify those individual actions that could be taken into 
Federal court versus State, and the frustration we have heard 
because Newport News is down the road a bit and is subject to 
the same laws, at least from a State level.
    In your examination and studies, was there a comparative 
attempted to be drawn between what was used and implemented, or 
are you suggesting this was simply a cultural phenomenon, a 
spike and a decline?
    Mr. Ludwig. That is a terrific question. I think in order 
to understand the crime decline that we saw in Richmond and 
throughout the United States in the 1990's, it is useful to 
have some understanding of why crime increased so dramatically 
from the mid-1980's through the early to mid-1990's.
    Most explanations for that surge in crime center on some 
combination of growing crack use and distribution, the growing 
involvement of youth in the crack distribution system, and the 
growing involvement of guns in crack distribution and the 
eventual proliferation of guns to other youth as well.
    With that said, there remains some debate about exactly why 
crime has plummeted so dramatically in the United States during 
the 1990's. Some of the explanations rest with the petering out 
of that cycle of crack, kids and guns. Whatever the cause, and 
so what we have seen is a substantial decline in crime not just 
in Richmond, but in almost every major city in the country.
    The FBI crime data that we have available seems to suggest 
that what happened in Richmond is not unique to anything 
specifically that Richmond did. Put differently, there are two 
possible explanations for what we see in the data for Richmond. 
In principle, it could be that crime dropped so dramatically 
because the crack problem simply changed in the early to mid-
1990's.
    The other possibility is that crime could have plummeted 
dramatically because each individual city across the United 
States implemented their own particular intervention that 
happened to be effective. What we do know is that what happened 
in Richmond is not unusual from what we saw in other cities 
that had the same prior experience.
    In order to determine whether what Richmond did 
specifically seemed to have some effect, we looked at whether 
the decrease in homicide in Richmond was concentrated among 
adults because, as you know, under the Federal statutes that 
form the heart of Project Exile in Richmond, it is primarily 
adults who are eligible for Federal firearm prosecutions and 
not youth.
    What we saw in Richmond is that the decline is not 
disproportionately driven by changes in adults. That finding 
suggests to me in that something else seemed to be responsible 
for most of the decline in homicides in Richmond rather than 
the Project Exile program, per se.
    Senator Craig. In your observation of what is now underway 
across this country with the community effort and the diversity 
within it and the resources being applied, do you believe, 
based on your experience and your studies, that this is an 
effective use of public resources?
    Mr. Ludwig. I think that the allocation of resources to 
Project Safe Neighborhoods will have some effect in reducing 
homicide in the United States. In my opinion, the effect will 
be much more modest than most people believe, based on common 
wisdom about Richmond.
    In my judgment, I think the impact of the Project Safe 
Neighborhoods spending could be enhanced by reallocating some 
of those resources from a focus on prosecution and extending 
and making more severe the prison penalties associated with gun 
violations and instead doing more to enhance the certainty or 
the probability that gun violators are apprehended, prosecuted 
and imprisoned. And one way to do that is through allocating 
more resources to targeted police patrols that focus on getting 
illegally carried guns and the people who carry guns illegally 
off the street.
    Senator Craig. I am a bit confused by that answer because I 
understand what you are saying, I understand the premise of 
what you are saying, but how do you keep them off the street 
once you have taken them off the street?
    One of the great problems we have is this, if you will, a 
professional, seasoned, hardened criminal who accelerates his 
or action to the point of using a firearm in the commission of 
a crime, ultimately killing someone, and, of course, then a 
felon, and that revolving door of State versus Federal 
application of the law and the severity of the penalty. Visit 
with me a bit about that.
    Mr. Ludwig. Certainly, you are absolutely correct, Senator, 
that increased police patrols and increased arrests without 
incarceration of gun offenders would be meaningless and would 
have no effect on crime, or little to no effect on crime.
    The question, then, is if we have a given amount of 
resources available should we either extend prison penalties 
for gun violations or increase the chances that you are caught 
and imprisoned for some period of time? The research seems to 
suggest that it is more effective to increase the chances that 
you are caught.
    So, for instance, when Project Exile went into effect in 
February of 1997, in Richmond, the federal prison penalties for 
the types of gun violations that formed the heart of the 
Project Exile prosecutions were much more severe prison 
penalties than those in place under Virginia State law. But the 
penalties in place under Virginia State law were not nothing; 
these state penalties did not entail zero time in jail for 
those types of violations.
    Our research suggests that extending the prison sentence 
from what was in place in the State of Virginia under State 
laws at the time to what was in place under the Federal laws 
did not have a very dramatic effect on gun crime in Richmond. 
The extension of prison penalties that was really at the heart 
of Project Exile in Richmond, and that did not seem to have a 
dramatic, or even discernible, effect on crime in the city.
    On the other hand, in research from Kansas City, from 
Indianapolis, and most recently, and I think most convincingly, 
from Pittsburgh, there is evidence suggesting that when you use 
the State laws for those gun violations in place at those 
States in those times and increase the chances that people who 
carry guns illegally will be apprehended, prosecuted and 
punished under State law, that is a more effective use of 
scarce resources than enhancing the penalty that people serve 
when they are caught.
    Senator Craig. Well, okay, that is an interesting statistic 
and observation. My guess is--and I don't have time to pursue 
this further today--that there are some out here and some who 
have been on the panel who will disagree with that observation. 
Time is going to tell because there are very aggressive efforts 
underway across this country now with this program.
    I think I agree with you, Professor. The opportunity to 
observe, to look at where we are headed and its impact over an 
extended period of time is probably more likely today than it 
has been in the past. So we will probably have you back in 
times to come to draw conclusions from a greater and more 
extended body of information as we proceed down this path.
    Gentlemen, thank you very much for your time before the 
Committee and the testimony you have offered today.
    Let me also ask unanimous consent that the statements of 
the Ranking Member, Senator Leahy, be made part of the record, 
along with another member of the Committee, Senator Joe Biden. 
They will become a part of the record.
    I must announce that the record will stay open for a period 
of a week for any additional information or questions that 
might come.
    Thank you all. The Committee stands adjourned.
    [Whereupon, at 12:04 p.m., the Committee was adjourned.]
    [Question and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] T9886.001

[GRAPHIC] [TIFF OMITTED] T9886.002

[GRAPHIC] [TIFF OMITTED] T9886.003

[GRAPHIC] [TIFF OMITTED] T9886.004

[GRAPHIC] [TIFF OMITTED] T9886.005

[GRAPHIC] [TIFF OMITTED] T9886.006

[GRAPHIC] [TIFF OMITTED] T9886.007

[GRAPHIC] [TIFF OMITTED] T9886.008

[GRAPHIC] [TIFF OMITTED] T9886.009

[GRAPHIC] [TIFF OMITTED] T9886.010

[GRAPHIC] [TIFF OMITTED] T9886.011

[GRAPHIC] [TIFF OMITTED] T9886.012

[GRAPHIC] [TIFF OMITTED] T9886.013

[GRAPHIC] [TIFF OMITTED] T9886.014

[GRAPHIC] [TIFF OMITTED] T9886.015

[GRAPHIC] [TIFF OMITTED] T9886.020

[GRAPHIC] [TIFF OMITTED] T9886.021

[GRAPHIC] [TIFF OMITTED] T9886.022

[GRAPHIC] [TIFF OMITTED] T9886.023

[GRAPHIC] [TIFF OMITTED] T9886.024

[GRAPHIC] [TIFF OMITTED] T9886.025

[GRAPHIC] [TIFF OMITTED] T9886.016

[GRAPHIC] [TIFF OMITTED] T9886.017

[GRAPHIC] [TIFF OMITTED] T9886.018

[GRAPHIC] [TIFF OMITTED] T9886.019

[GRAPHIC] [TIFF OMITTED] T9886.026

[GRAPHIC] [TIFF OMITTED] T9886.027

[GRAPHIC] [TIFF OMITTED] T9886.028

[GRAPHIC] [TIFF OMITTED] T9886.029

[GRAPHIC] [TIFF OMITTED] T9886.030

[GRAPHIC] [TIFF OMITTED] T9886.031

[GRAPHIC] [TIFF OMITTED] T9886.032

[GRAPHIC] [TIFF OMITTED] T9886.033

[GRAPHIC] [TIFF OMITTED] T9886.034

[GRAPHIC] [TIFF OMITTED] T9886.035

[GRAPHIC] [TIFF OMITTED] T9886.036

[GRAPHIC] [TIFF OMITTED] T9886.037

[GRAPHIC] [TIFF OMITTED] T9886.038

[GRAPHIC] [TIFF OMITTED] T9886.039

[GRAPHIC] [TIFF OMITTED] T9886.040

[GRAPHIC] [TIFF OMITTED] T9886.041

[GRAPHIC] [TIFF OMITTED] T9886.042

[GRAPHIC] [TIFF OMITTED] T9886.043

[GRAPHIC] [TIFF OMITTED] T9886.044

[GRAPHIC] [TIFF OMITTED] T9886.045

[GRAPHIC] [TIFF OMITTED] T9886.046

[GRAPHIC] [TIFF OMITTED] T9886.047

[GRAPHIC] [TIFF OMITTED] T9886.048

[GRAPHIC] [TIFF OMITTED] T9886.049

[GRAPHIC] [TIFF OMITTED] T9886.050

[GRAPHIC] [TIFF OMITTED] T9886.051

[GRAPHIC] [TIFF OMITTED] T9886.052

[GRAPHIC] [TIFF OMITTED] T9886.053

[GRAPHIC] [TIFF OMITTED] T9886.054

[GRAPHIC] [TIFF OMITTED] T9886.055

[GRAPHIC] [TIFF OMITTED] T9886.056

[GRAPHIC] [TIFF OMITTED] T9886.084

[GRAPHIC] [TIFF OMITTED] T9886.057

[GRAPHIC] [TIFF OMITTED] T9886.085

[GRAPHIC] [TIFF OMITTED] T9886.058

[GRAPHIC] [TIFF OMITTED] T9886.059

[GRAPHIC] [TIFF OMITTED] T9886.060

[GRAPHIC] [TIFF OMITTED] T9886.061

[GRAPHIC] [TIFF OMITTED] T9886.062

[GRAPHIC] [TIFF OMITTED] T9886.063

[GRAPHIC] [TIFF OMITTED] T9886.064

[GRAPHIC] [TIFF OMITTED] T9886.065

[GRAPHIC] [TIFF OMITTED] T9886.066

[GRAPHIC] [TIFF OMITTED] T9886.067

[GRAPHIC] [TIFF OMITTED] T9886.068

[GRAPHIC] [TIFF OMITTED] T9886.069

[GRAPHIC] [TIFF OMITTED] T9886.070

[GRAPHIC] [TIFF OMITTED] T9886.071

[GRAPHIC] [TIFF OMITTED] T9886.072

[GRAPHIC] [TIFF OMITTED] T9886.073

[GRAPHIC] [TIFF OMITTED] T9886.074

[GRAPHIC] [TIFF OMITTED] T9886.075

[GRAPHIC] [TIFF OMITTED] T9886.076

[GRAPHIC] [TIFF OMITTED] T9886.077

[GRAPHIC] [TIFF OMITTED] T9886.078

[GRAPHIC] [TIFF OMITTED] T9886.079

[GRAPHIC] [TIFF OMITTED] T9886.080

[GRAPHIC] [TIFF OMITTED] T9886.081

[GRAPHIC] [TIFF OMITTED] T9886.082

[GRAPHIC] [TIFF OMITTED] T9886.083


</pre></body></html>
